<html>
<title> - DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
        DISTRICT OF COLUMBIA APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:35 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine and Landrieu.
    Also present: Ms. Norton and Senator Strauss.

                          DISTRICT OF COLUMBIA

                                 Courts

STATEMENT OF ANNICE M. WAGNER, CHIEF JUDGE, DISTRICT OF 
            COLUMBIA COURT OF APPEALS; CHAIR, JOINT 
            COMMITTEE ON JUDICIAL ADMINISTRATION
ACCOMPANIED BY RUFUS G. KING, III, CHIEF JUDGE, SUPERIOR COURT OF THE 
            DISTRICT OF COLUMBIA


               opening statement of senator mike de wine


    Senator DeWine. Welcome, everyone. We have with us this 
morning two members of the Kiev City Council. Let me see if I 
can do the pronunciation, Yurly Zumko and Andre Radrewski. If 
you could stand, in the back. Thank you very much for joining 
us. I am glad to have you with us.
    I hope you enjoy your stay with us today; I hope we do not 
bore you too much with our hearing today.
    This hearing today will come to order. We will convene the 
first fiscal year 2005 budget hearing for the District of 
Columbia.
    I want to take this opportunity to, again, thank Senator 
Landrieu, our subcommittee's Ranking Member and to recognize 
her continued commitment to improving life for the residents of 
this Nation. It is good to be with you again.
    Over the years, Senator Landrieu and I have worked together 
on a number of important issues for our Nation's Capital, and I 
am sure that we will continue to work together this year as we 
work on the fiscal year 2005 D.C. Appropriations Bill.
    Today, we are considering the fiscal year 2005 budget 
request for the District of Columbia Courts. Under the National 
Capital Revitalization and Self-Government Improvement Act of 
1997, the Federal Government is required to finance the 
District of Columbia Courts.
    The President has requested $228 million for the Courts in 
fiscal year 2005. This is $60.2 million more than the fiscal 
year 2004 enacted level. I understand that the lion's share of 
this increase is to be used to restore the now vacant Old 
Courthouse, so that it can house the Court of Appeals, which in 
turn, will free up more space in the Moultrie Courthouse for a 
safe, family-friendly Family Court.
    The renovation of the Old Courthouse also will be an 
important historical preservation achievement. This building, 
the fourth oldest in the District of Columbia, has great 
historic significance. It is where President Lincoln's first 
inaugural ball was held, and where his assassination 
conspirators were tried and convicted.
    For a time, the building served as a hospital for the 
wounded soldiers of the Union Army. It is here where Frederick 
Douglass had his offices and where Daniel Webster practiced 
law.
    The fiscal year 2005 funding request will allow this very 
historic building to be restored to its former majesty, while 
also configuring it to be used to serve the people of the 
District as a working courthouse.
    I am pleased that Judge Wagner, Judge King followed the 
advice of this subcommittee and made a compelling case to OMB 
to support these construction efforts. I congratulate them for 
it. It is to their credit that the President has included 
adequate funding for these important Capital projects in his 
budget request.
    I must say, however, that I am concerned to know that court 
officials and representatives of the National Law Enforcement 
Museum Fund have, unfortunately, been unable to reach an 
agreement on the design of their shared space in Judiciary 
Square.
    On the one hand, Congress has mandated that the Courts 
reorganize and improve their services and facilities, which the 
Courts are beginning with the renovation of the Old Courthouse. 
On the other hand, Congress authorized the National Law 
Enforcement Memorial Fund to build an underground Law 
Enforcement Museum on Federal land that partially abuts the Old 
Courthouse. It is my firm belief that the Courts and the Law 
Enforcement Memorial Fund should reach an agreement that 
complies with both mandates. I am sure that they will be able 
to do this.
    I understand that the Courts and the Memorial Fund 
fundamentally disagree on the level of construction and the 
design of the plaza area, which will provide the entryway to 
both buildings. This disagreement has apparently been going on 
for almost a year, with no resolution in sight.
    I am concerned that this apparent impasse will result in 
delays to the construction schedule and, in turn, increased 
construction costs.
    As chairman of this subcommittee, which appropriates 100 
percent of the funding for the D.C. Courts, I want to work to 
ensure that there are no construction cost overruns involving 
Federal funds.
    As our hearing begins, Judge Wagner and Judge King will 
present the Courts' overall budget request, and then I will ask 
our witnesses from the National Law Enforcement Memorial Fund, 
the National Capital Planning Commission, and the Commission of 
Fine Arts to join the panel to discuss the design disagreement, 
which I have just mentioned.


                           prepared statement


    Witnesses will be, of course, be limited to 5 minutes for 
their oral remarks. Copies of all written statements will be 
placed in the record in their entirety.
    [The statement follows]:
               Prepared Statement of Senator Mike DeWine
    Good morning. This hearing will come to order. Today I am convening 
the first fiscal year 2005 budget hearing for the District of Columbia. 
I want to take this opportunity to thank Senator Landrieu, our 
subcommittee's Ranking Member, and to recognize her continued 
commitment to improving life for the residents of the District of 
Columbia. Over the years, Senator Landrieu and I have worked together 
on a number of important issues for our Nation's capital, and I am sure 
that we will continue to reach across the aisle as we begin work on the 
fiscal year 2005 District of Columbia appropriations bill.
    Today, we are considering the fiscal year 2005 budget request for 
the District of Columbia Courts. Under the National Capital 
Revitalization and Self-government Improvement Act of 1997, the Federal 
Government is required to finance the District of Columbia Courts.
    The President has requested $228 million for the Courts in fiscal 
year 2005. This is $60.2 million more than the fiscal year 2004 enacted 
level. I understand that the lion's share of this increase will be used 
to restore the now-vacant Old Courthouse so that it can house the Court 
of Appeals, which, in turn, will free up more space in the Moultrie 
Courthouse for a safe, family-friendly Family Court. The renovation of 
the Old Courthouse also will be an important historic preservation 
achievement. This building--the 4th oldest in the District of 
Columbia--has great historic significance. It is where President 
Lincoln's first inaugural ball was held and where his assassination 
conspirators were tried and convicted. For a time, the building served 
as a hospital for wounded soldiers of the Union Army. It is here where 
Frederick Douglass had his offices and where Daniel Webster practiced 
law.
    The fiscal year 2005 funding request will allow this very historic 
building to be restored to its former majesty, while also configuring 
it to be used to serve the people of the District as a working 
courthouse.
    I am pleased that Judge Wagner and Judge King followed the advice 
of this subcommittee and made a compelling case to OMB to support these 
construction efforts. It is to their credit that the President has 
included adequate funding for these important capital projects in his 
budget request. I am concerned, however, to know that Court officials 
and representatives of the National Law Enforcement Museum Fund have 
been unable to reach an agreement on the design of their shared space 
in Judiciary Square. On the one hand, Congress has mandated that the 
Courts reorganize and improve their services and facilities, which the 
Courts are beginning with the renovation of the Old Courthouse. On the 
other hand, Congress authorized the National Law Enforcement Memorial 
Fund to build an underground Law Enforcement Museum on Federal land 
that partially abuts the Old Courthouse. It is my firm belief that the 
Courts and the Law Enforcement Memorial Fund should reach an agreement 
that complies with both mandates.
    I understand that the Courts and the Memorial Fund fundamentally 
disagree on the level of construction and the design of the plaza area, 
which will provide the entryway to both buildings. This disagreement 
has apparently been going on for almost a year, with no resolution in 
sight. I am concerned that this apparent impasse will result in delays 
to the construction schedule and, in turn, increased construction 
costs. As Chairman of this subcommittee, which appropriates 100 percent 
of the funding for the D.C. Courts, I want to work to ensure that there 
are no construction cost overruns involving Federal funds.
    As our hearing begins, Judge Wagner and Judge King will present the 
Courts' overall budget request, then I will ask our witnesses from the 
National Law Enforcement Memorial Fund, the National Capital Planning 
Commission, and the Commission of Fine Arts to join the panel to 
discuss the design disagreement which I have mentioned.
    Witnesses will be limited to 5 minutes for their oral remarks. 
Copies of all written statements will be placed in the Record in their 
entirety.

    Senator DeWine. Senator Landrieu.

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Thank you. Thank you, Mr. Chairman. And 
welcome to our distinguished panelists this morning, and 
welcome to all of our guests.
    I want to just reiterate again how much of a pleasure it is 
for me to work with Senator DeWine. We have worked as a 
partnership now for several years and we can see such progress, 
particularly in the area that we are going to be discussing 
this morning, the renovation and development of Judiciary 
Square, the establishment of a very family-friendly or child-
centered Family Court that will service not only the District, 
but serve as a model for the Nation.
    We commend you all for the work that is ongoing, and we 
look forward to continuing the partnership in that regard.
    I also express, again, the importance, at least from our 
perspective, Mr. Chairman, of the focus on establishing the new 
Family Court, because not only are we establishing a new 
building that is operational and conducive to good judgments 
and outcomes, but through the partnership of this committee, it 
can help to build a new initiative in the City that strengthens 
families, protects children from harm and expedites life 
changing and sometimes threatening decisions, to make sure that 
families and the well-being of children are of paramount 
importance for us, for this committee.

                           PREPARED STATEMENT

    So with that, I will just put the rest of my statement in 
the record. And thank you, Mr. Chairman, for the focus this 
morning.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    As the first hearing of year I wanted to join my Chairman, Mr. 
DeWine in welcoming the witnesses and sharing a brief philosophy on our 
leadership of this committee and our goals. The D.C. Appropriations 
bill, under my chairmanship and continuing with Mr. DeWine, has charted 
a course to support targeted investments in the District. Congress is 
partnering with the District by enhancing security and emergency 
preparedness; strengthening schools and education standards; supporting 
the Family Court and child welfare. These three areas support the 
District's Mayor Anthony Williams' goal to revitalize neighborhoods and 
increase the population of the city by 100,000 people in the next 10 
years. People want good schools and dynamic, safe neighborhoods. This 
committee will continue this partnership, following on our investments 
in the Family Court and child services and development of excellent 
charter schools.
    Today's hearing is focused on one of our Federal agencies, the D.C. 
Courts to discuss their fiscal year 2005 budget request. In addition, 
we have asked the National Capital Planning Commission, Commission on 
Fine Arts, and the National Law Enforcement Museum to join us to 
discuss the Judiciary Square Master Plan and we appreciate their 
attendance. The Courts are really the core of the D.C. Appropriations 
bill and the center of our attention. This subcommittee exercises the 
``State'' oversight function for the District, similar to how other 
cities and States interact.
    As one of the central functions transferred to the Federal 
Government in the 1997 Revitalization Act, the Courts serve a unique 
role to serve the public and be accountable to the Congress. I believe 
this Court, lead by Chief Judge King and Chief Judge Wagner has met 
this responsibility aptly. The fiscal year 2005 budget reflects a 
commitment to improved management of the Courts and justification for 
increased budget authority.
    The focus of this year's budget is infrastructure, and I commend 
the Courts for making this a priority. In addition, I am pleased to see 
over the 3 years that I have been on this committee that the Courts 
have undertaken facilities Master Planning process in close 
consultation with the Federal oversight panels. I look forward to a 
presentation on the Master Plan for Judiciary Square and supporting the 
Courts' needs for implementing this plan. Major renovation and 
expansion of the Courts' facilities is important to this committee; 
however we want to examine the process undertaken to prioritize these 
projects and decisions made to focus on construction/renovation rather 
than rehabilitation of existing buildings. I understand that there are 
serious maintenance issues in the current facilities, such as 
inadequate heating and air conditioning, poor lavatories, and an 
unfriendly public space.
    This committee has invested in regular maintenance at levels much 
higher than our predecessors. I think much progress has been made; 
however I understand the need for the focus to shift now to long term 
capital projects, such as constructing a new Family Court and 
completing the restoration of the Old Courthouse. These are ``marquee'' 
projects which receive a great deal of attention from Congress and the 
community, but they are also much more costly and therefore take a 
greater bite out of the budget. I recognize their importance but there 
is also a balance with ongoing maintenance and making improvements to 
public space while rehabilitation projects are underway. I would be 
interested to hear your thoughts on balancing these capital 
infrastructure needs.
    The committee is also joined by witnesses from the National Capital 
Planning Commission, Commission on Fine Arts, and the National Law 
Enforcement Museum to discuss judiciary square master planning. The 
committee is particularly concerned with lack of coordination and 
cooperation with the Museum. Federal dollars and oversight is directing 
the development of Judiciary Square. It is critical that we can 
appropriately direct resources to the moving priorities that also 
reflect the needs of the District. The committee has been actively 
engaged in creation of the family court and need for a dedicated space 
for children and families. Progress of the family court construction is 
dependent on agreement of the law enforcement museum and Old 
Courthouse, freeing up space in the main Courthouse. I look forward to 
hearing progress of the various projects and options for moving forward 
with restoration of the square to the original historic design.
    I appreciate your attendance today and look forward to working to 
improve the appearance and utility of Judiciary Square.

               PREPARED STATEMENT OF SENATOR PAUL STRAUSS

    Senator DeWine. Senator Landrieu, thank you very much. 
Senator Strauss has provided a statement to be included for the 
record as well.
    [The statement follows:]
               Prepared Statement of Senator Paul Strauss
    Chairman DeWine, Ranking Member Landrieu, and others on the 
subcommittee, as the elected United States Senator for the District of 
Columbia, and an attorney who practices in our local courts, I would 
like to thank you for holding this hearing this morning, and for 
considering the needs of the people in the District of Columbia.
    I fully support the fiscal year 2005 Budget Request for the 
District of Columbia Courts. It is vital that the District of Columbia 
Court System be fully funded in the amount proposed by the courts. As 
the District of Columbia Senator, I myself cannot vote on this 
appropriation. I am limited to merely asking you to support their 
requests.
    As in the past, it appears that the President's request is 
significantly less than the amount requested by our judicial 
institutions. I find this unfortunate. Unlike citizens of any other 
jurisdiction, we lack the legal rights to make these funding decisions 
on our own. As I have stated before, unless the local courts are fully 
funded by this subcommittee and the Congress, they will not be fully 
funded. This is not just an issue of simply allocating appropriations, 
but for the residents of our Nation's Capital, an issue of fundamental 
justice.
    There is a compelling argument to be made that District of Columbia 
should not have to look to Congress for the sole financial support of 
its courts. I for one agree with that position. This is again a case 
where the many limits on the District of Columbia's ability to have 
self-government adversely impact the taxpayers of your own States. For 
the record, if Congress would simply grant the District of Columbia's 
petition for Statehood, the restrictions on our revenue-raising ability 
would be lifted and we could fund our court system ourselves and over 
$260 million can be returned to the Federal treasury. I have made this 
argument case many times before many committees of this body. I do not 
intend to discuss D.C. Statehood here today because the unfortunate 
truth is that while this status quo is maintained, it is absolutely 
essential that Congress fully fund the D.C. Court System, and I am 
obligated to support that appropriation.
    The President is requesting $225 million for the District of 
Columbia Courts for the fiscal year 2005 budget and $41.5 million to 
the Defender Services. The Courts themselves are requesting $272.08 
million for the fiscal year 2005 budget and $50.5 million for Defender 
Services. The fiscal year 2005 budget request for the District of 
Columbia Courts furthers the Courts developments by building upon prior 
achievements, and supports the Courts' commitment to serve the citizens 
of the District of Columbia. The D.C. Courts will be more empowered to 
fulfill this commitment by having the necessary funds to do so, and 
will be extremely limited in their abilities if they do not.
    In order for the District of Columbia Courts to continue to provide 
the highest level of justice to the citizens of the District of 
Columbia, it is crucial that they receive additional resources in the 
fiscal year 2005. The Court's requests command considerable capital 
investments in facilities, infrastructure, security, and technology, as 
well as operational investments to enhance the administration of 
justice and service to the public. If the courts are unable to obtain 
additional capital resources, The Moultrie Courthouse and the 
District's historic Old Courthouse, along with Buildings A and B, will 
continue to deteriorate; the Courts' information technology will fail; 
and needed security measures and equipment will not be installed, 
putting the Courts' buildings and the public at risk.
    I recognize that it can be tempting to refer to the increase of 
funds allotted to the District of Columbia Courts by the President in 
his request between 2004 and 2005 and conclude that the Court's needs 
have been met. I urge you to look past this deceiving increase. The 
Office of Management and Budget generated marks are inadequate to meet 
the needs of the District of Columbia Courts, and need to be considered 
a floor and not a ceiling for purposes of the fiscal year 2005 budget. 
I realize the President has other priorities, but the District of 
Columbia Courts are in dire need of revenue for program enhancements 
and physical improvements. The budget requests they have submitted are 
reasonable.
    The current and future needs that will be met by the budget 
proposal submitted by the District of Columbia Courts are diverse. They 
include investing in human resources, broadening access to justice and 
service to the public, promoting competence, professionalism and 
civility, improving court facilities and technology, enhancing public 
security, and strengthening services to families. In this hearing, the 
witnesses have presented the fiscal marks that they request regarding 
the aforementioned capital improvements for the fiscal year 2005. With 
the cooperation of and significant input from General Services 
Administration, the District of Columbia Courts previously proposed a 
Master Plan for Facilities. The fiscal year 2005 capital request 
reflects the significant research and planning included in this Master 
Plan. It is essential that the Courts receive the funds needed to 
complete this three-part plan in order to ensure the health, safety, 
and quality of court facilities and begin to address court space needs.
    Let me briefly address whatever conflicting design issues which may 
or may not exist between the D.C. Courts and the National Law 
Enforcement Fund. I am pleased that the D.C. Courts recently submitted 
a viable design that will simultaneously comply with Federal law and 
address the concerns of the Memorial Fund. The NCPC has encouraged the 
Memorial Fund to accept this resolution as a sound starting point for 
development, so that this project does not exceed budget restrictions, 
thereby costing taxpayers more money in order to complete it. Judiciary 
Square is the historic home of the D.C. Courts, and an original element 
of the L'Enfant plan. I am not convinced that any significant conflict 
between the plans of the two institutions exists. To the extent that 
one does however, any competing needs must be resolved in favor of our 
judicial branch. While the planned museum will no doubt enhance the 
culture and aesthetics of our community, the Court System is a 
necessary government function. While the Court System is ready now with 
capital funding, the museum continues to solicit private contributions. 
Any restriction of the Courts' mandatory operations would be a 
disservice to the people of D.C., no matter how noble the symbolism of 
the planned museum.
    Notwithstanding the importance of fully funding the District of 
Columbia Court System operating budget, I would like to ask the 
subcommittee to focus your attention on the Defender Services line 
item. I cannot emphasize enough the need to fully fund the Defender 
Services line item, at the Court's mark. Presently, there is a mere $9 
million difference in the two requests.\1\ In order to provide adequate 
representation to families in crisis, we need to fully fund Defender 
Services. I said it last year, and it remains true for fiscal year 
2005, all of this Committee's accomplished work on restructuring the 
Family Court is in jeopardy unless it has the resources to sustain it.
---------------------------------------------------------------------------
    \1\ The President allotted $134 million for Court Operations while 
the Courts requested $151.15 million, a difference of $17.15 million, 
and the President allotted $93.4 million for Capital whereas the Courts 
requested $120.93 million, a difference of $27.53 million.
---------------------------------------------------------------------------
    Please note that it is not the lawyers but the D.C. Court System 
itself who is asking for an increase in the hourly rate paid to 
attorneys that provide legal services to the indigent. Their request 
includes those attorneys that work hard to represent abused and 
neglected children in Family Court. The first fee increase in nearly a 
decade was implemented in March of 2002 when it was adjusted to the 
present rate of $65 per hour. In the fiscal year 2004 request, the 
Courts recommend an incremental increase from the current $65 an hour 
to $75 per hour and eventually to $90 per hour. They are again 
requesting the new rate this year.
    This adjustment is important because the Federal Court's appointed 
lawyers, literally across the street, already get paid $90 an hour to 
do very similar work. Therefore, the disparity in pay between the two 
systems creates a disincentive amongst the ``experienced'' attorneys to 
work for Defender Services in the D.C. Court. I call on this 
subcommittee to once again eliminate this disincentive by fully funding 
the requested increase in the Defender Services line item in the bill 
for fiscal year 2005, and then fight vigorously to defend that mark 
against adverse House action if a conference committee fight becomes 
necessary.
    The Family Court is an institution that must protect the District's 
most vulnerable citizens--its children. Although the budget provides 
training for new attorneys, it is the experienced advocates who best 
serve these special clients. We are in danger of losing our most 
experienced child advocates due to budget cuts. A deficiency in funds 
to Defender Services will compromise the safety of children in the 
District of Columbia, so I am compelled to ask you to secure children's 
safety in the District of Columbia by fully funding Defender Services.
    In closing, I wish to sincerely thank the subcommittee for holding 
this hearing. I know that this subcommittee has been firmly committed 
to meeting its fiduciary obligations regarding appropriations for the 
D.C. Courts. On behalf of my constituents, I thank you for all your 
hard work and dedication and I look forward to your continued 
cooperation. There has been strong bipartisan support in this 
subcommittee for our Court system. In particular, I commend Senators 
DeWine and Landrieu for all the great work that they have done on the 
important issue. Both of you have generally treated the D.C. Courts 
with the same consideration as if they were courts in your own States. 
Finally, let me thank Kendra Canape, Marco Berte and Brian Rauer of my 
staff, for their assistance in the preparation of this testimony.

    Senator DeWine. Judge King and Judge Wagner, thank you very 
much for joining us. And we welcome your opening statements.
    Let me just announce to everyone: We have a vote on the 
Senate floor at 10:30. This committee will finish by 10:30 
today one way or the other--so we will be able to do that. I am 
sure there is plenty of time for us to do our business here 
today.
    Judge King.
    Judge King. If Judge Wagner would start?
    Senator DeWine. Oh, Judge Wagner, if you wish to start.
    Judge Wagner. Yes. Thank you.

                  STATEMENT OF JUDGE ANNICE M. WAGNER

    Judge Wagner. Good morning, Mr. Chairman and Senator 
Landrieu, subcommittee members.
    Senator DeWine. Good morning.
    Judge Wagner. I want to thank you for this opportunity to 
discuss the fiscal year 2005 budget request for the District of 
Columbia Courts. I am Annice Wagner, and I am appearing in my 
capacity as the Chair of the Joint Committee on Judicial 
Administration in the District of Columbia. Of course, Chief 
Judge Rufus King, III, of the Superior Court of the District of 
Columbia, is present and joins in this statement and will make 
a statement of his own.
    My remarks this morning will summarize only and highlight 
our most critical priority, our capital budget request. I want 
to thank you for including in the record the detailed written 
statement we have submitted. I plan to focus my remarks on this 
critical capital requirement.
    The District of Columbia Courts, as you know, serve 
approximately 10,000 members of the public each day. They 
handle more than 200,000 cases each year, and employ a staff of 
1,200 who directly serve the public, process cases, and provide 
administrative support.
    The D.C. Courts' capital funding requirements are 
significant because they include funding for projects critical 
to maintaining, preserving, and building safe and functional 
courthouse facilities essential to meeting the heavy demands of 
the administration of justice in our Nation's Capital. Of 
course, included in that is our Family Court, in which you both 
have been so interested in the past.
    Just under a year ago, we appeared before the subcommittee 
to discuss our capital budget. We appreciate the support for 
our Master Plan for Facilities that you, Mr. Chairman, in 
particular, expressed at that time.
    And we have taken your advice to heart, working very 
closely with the administration during its review of the 
Courts' capital budget request.
    We are very gratified that the President has included in 
his budget recommendations the major components of our 
facilities renovation plans, particularly the restoration of 
the Old Courthouse for use by the Court of Appeals, which is 
the highest court in this jurisdiction. The restoration of this 
architectural jewel, the centerpiece of the historic Judiciary 
Square, will not only serve to address the Courts' space 
requirements, but it will also help to revitalize this 
important public area in our Nation's Capital.
    Since the most recent study for the restoration of the Old 
Courthouse was completed in 1999, with the support of this 
subcommittee, we have been successful in mothballing the 
building, so to speak; that is, securing its roof and making it 
watertight, to prevent further deterioration.
    Last year, we procured a nationally renowned architectural 
and engineering firm, Beyer Blinder Belle, to design the 
restoration. Representatives of that firm are with us today, 
Mr. John Belle and Mr. Hany Hassan. They are recognized as 
bringing sensitive solutions to complex urban problems 
requiring a delicate mix of appropriate historic restoration 
and bold inventive design, and have received as a result 
Presidential Design awards, this country's highest award for 
public architecture. They have worked on such things as the 
Grand Central Station and the Ellis Island restorations.
    The design for the restoration of the Old Courthouse itself 
is now at the 50 percent complete stage. We will be ready to 
submit this design to the regulatory agencies next month, with 
the final design to be completed in August of this year.
    We are scheduled to begin construction in January 2005 and 
plan to relocate the District of Columbia Court of Appeals to 
the Old Courthouse when it is restored, and we expect that to 
occur in January 2007.
    This relocation is a critical path of interdependent 
actions, which must occur in a complex sequence. That is, one 
thing must occur so that other parts of the Court can be 
accommodated, including the finalization of our Family Court 
with its own separate entrance on C Street.
    Formal review and approval by the regulatory agencies of 
the Old Courthouse project must proceed expeditiously, as any 
delay will increase cost, contribute to further deterioration 
and delay implementation of the Courts' Master Plan for 
Facilities, including the Family Court.
    As you may know, both the Commission of Fine Arts and the 
National Capital Planning Commission called for a coordinated 
design agreement between the Courts and the National Law 
Enforcement Museum, which is authorized to build an underground 
museum with above-ground entrance pavilions on part of the 
site.
    At that time, it appeared that both projects were on 
similar construction schedules. Subsequently, however, we have 
learned that the museum construction may not commence until 
sometime between 2009 and 2012, up to 5 years after the 
completed Old Courthouse is scheduled to become the seat of the 
District of Columbia Court of Appeals.
    But we are confident that our respective architects will 
eventually reach a design for the plaza entranceway which is 
agreeable to all parties. However, to address the area in the 
interim between construction projects, our architects have 
prepared a phase one design that completes the Old Courthouse 
restoration without infringing on the area authorized for the 
museum. Therefore, an agreement on plaza entranceway design 
should not delay the restoration and use of this important 
public building.
    We recognize that coordination must continue with the 
museum and that some modifications to the site may be 
necessary.
    Senator DeWine. Judge, if you could conclude, please, if 
you could finish it.
    Judge King. Sir, I do not know if it's appropriate, but I 
would be happy to yield most of my time to Judge Wagner.
    Senator DeWine. That would be fine.
    Judge Wagner. Well, I have only a couple more statements to 
make.
    Senator DeWine. Sure.
    Judge Wagner. The principles of aesthetics, urban design, 
planning, and the enhancement of historical, cultural and 
natural resources will be best served by permitting the 
restoration of the historically and architecturally significant 
Old Courthouse.

                           PREPARED STATEMENT

    Again, I thank you for your support of our facilities and 
plans and for this opportunity to discuss this very important 
issue in our capital budget.
    And Chief Judge King and I, we will be happy to answer any 
questions.
    [The statement follows:]
                 Prepared Statement of Annice M. Wagner
    Mister Chairman, Senator Landrieu, Subcommittee members, thank you 
for this opportunity to discuss the fiscal year 2005 budget request of 
the District of Columbia Courts. I am Annice Wagner, and I am appearing 
in my capacity as the Chair of the Joint Committee on Judicial 
Administration in the District of Columbia. I also serve as Chief Judge 
of the District of Columbia Court of Appeals. Chief Judge Rufus G. 
King, III, of the Superior Court of the District of Columbia is also 
present today and joins in this statement.
    As you know, the Joint Committee is the policy-making body for the 
District of Columbia Courts. By statute, its responsibilities include, 
among others, general personnel policies, accounts and auditing, 
procurement and disbursement, management of information systems and 
reports, and submission of the Courts' annual budget request to the 
President and Congress. This jurisdiction has a two-tier system 
comprised of the D.C. Court of Appeals, our court of last resort, and 
the Superior Court of the District of Columbia, a trial court of 
general jurisdiction, which includes our Family Court. Administrative 
support functions for our Courts are provided by what has come to be 
known as the Court System.
    My remarks this morning will summarize the request and highlight 
our most critical priority, our capital budget. With me this morning, 
along with Chief Judge King, are Ms. Anne Wicks, the Executive Officer 
for the Courts and Secretary to the Joint Committee and Mr. Joseph 
Sanchez, our Administrative Officer. We are prepared to answer 
questions you may wish to pose concerning the budget request for the 
Courts.
                              introduction
    Unquestionably, we live in a changing environment, facing new 
challenges to our Nation, our Nation's capital, and our court system. 
Whatever challenges we face, the fair and effective administration of 
justice remains crucial to our way of life. The District of Columbia 
Courts are committed to meeting these new challenges. We have been 
steadfast in our mission, which is to protect rights and liberties, 
uphold and interpret the law, and resolve disputes peacefully, fairly 
and effectively in the Nation's Capital. Through our Strategic Plan, 
finalized in fiscal year 2003, the Courts strive to enhance the 
administration of justice; broaden access to justice and service to the 
public; promote competence, professionalism, and civility; improve 
court facilities and technology; and build trust and confidence. We 
appreciate the support that this Subcommittee has given us that makes 
possible the achievement of these goals for our community.
    The Courts are committed to fiscal prudence and sound financial 
management. We are undergoing significant changes to meet the 
challenges of new technologies and are working to ensure that the 
courts of this jurisdiction have a sound infrastructure. Although we 
have requested funds for several important operating initiatives, the 
critical focus of our fiscal year 2005 budget request is our 
infrastructure.
    To support our mission and strategic goals in fiscal year 2005, the 
D.C. Courts are requesting $272,084,000 for Court operations and 
capital improvements and $50,500,000 for the Defender Services account. 
The Federal Payment request includes: $9,109,000 for the Court of 
Appeals; $88,714,000 for the Superior Court; $53,331,000 for the Court 
System; and $120,930,000 for capital improvements for courthouse 
facilities.
    The demands on the D.C. Courts require additional resources in 
fiscal year 2005. To build on past accomplishments and to support 
essential services to the public in the Nation's capital, investment in 
infrastructure, technology, and security are essential priorities. Only 
by investing in these areas will the Courts be in a position to ensure 
that our facilities are in a safe and healthy condition and reasonably 
up-to-date, that our information technology is capable of meeting 
today's demands; and that the type of security necessary to protect our 
citizens and our institution is in place. Focus on these capital areas 
is particularly critical now to meet each of these needs and to ensure 
that the quality of justice is not compromised.
    The Courts' fiscal year 2005 request is a fiscally responsible 
budget that continues to build on our achievements. We are particularly 
proud of our progress with a number of recent initiatives. These 
include:
  --completion of the D.C. Courts' first Master Plan for Facilities 
        that evaluates the Courts' space needs and provides a blueprint 
        for space utilization, both short-term and long-term;
  --submission of a draft Master Plan for Judiciary Square to the 
        National Capital Planning Commission, providing a plan for 
        revitalization and urban renewal of this historic area where 
        the Courts are located that dates to the original L'Enfant Plan 
        for the Nation's Capital;
  --implementation of the District of Columbia Family Court Act of 
        Fiscal Year 2001; to date, the Courts have implemented the one 
        family one judge principle and transferred all required 
        children's cases to Family Court judges, created attorney 
        panels and practice standards for neglect and juvenile cases, 
        established a Family Treatment Court, piloted a Self-Help 
        Center for litigants with assistance from the bar, increased 
        resources devoted to family matters with the addition of nine 
        magistrate judges and three Family Court Judges, and opened the 
        Mayor's Services Liaison Center in the courthouse;
  --completion and initial implementation of the Courts' 5-year 
        strategic plan, ``Committed to Justice in the Nation's 
        Capital,'' following 9 months of extensive input from the 
        public, practicing attorneys and other stakeholders, detailed 
        analysis of community trends, and significant work by the 
        Courts' Strategic Planning Leadership Council;
  --implementation of the Integrated Justice Information System (IJIS) 
        in Family Court substantially completed in 2003;
  --creation of community-based courts, such as the criminal Community 
        Court and prostitution calendar, that seek to improve the 
        quality of community life by reducing nuisance crimes through 
        community-based sanctions and treatment and social services to 
        solve the underlying problems leading to the unlawful behavior; 
        and
  --opening the Domestic Violence Satellite Center in Southeast, in 
        cooperation with community-based advocacy groups and District 
        agencies, to facilitate protection orders and services for 
        large number of domestic violence victims who reside east of 
        the Anacostia river.
           critical fiscal year 2005 priority--infrastructure
    The District of Columbia Courts serve approximately 10,000 
courthouse visitors each day, handle more than 200,000 cases each year, 
and employ a staff of 1,200 who directly serve the public, process the 
cases, and provide administrative support. The District of Columbia 
Courts are among the busiest and most productive court systems in the 
United States.\1\ For example, the Superior Court of the District of 
Columbia has the second highest number of cases filed per judge, and 
the highest number of civil and criminal case filings per capita of all 
unified State courts in the Nation. Our Court of Appeals has the 
highest number of appeals filed per capita among all States with a 
similar court structure.
---------------------------------------------------------------------------
    \1\ See ``Examining the Work of State Courts 2002: A National 
Perspective from the Court Statistics Project'', by B. Ostrom, N. 
Kauder, & R. LaFountain (National Center for State Courts 2003).
---------------------------------------------------------------------------
    The D.C. Courts' capital funding requirements are significant 
because they include funding for projects critical to maintaining, 
preserving, and building safe and functional courthouse facilities 
essential to meeting the heavy demands of the administration of justice 
in our Nation's Capital. To effectively meet these demands, the Courts' 
facilities must be both functional and symbolic of their public 
significance and character. In the 2005 capital budget, the Courts 
highest budgetary priority seeks to comprehensively address these 
issues.
    In preparing the fiscal year 2005 capital budget request, the 
Courts carefully assessed the capital requirements essential to 
performing our statutory and constitutionally mandated functions. The 
Courts' request for capital funding is particularly critical in fiscal 
year 2005 because of the need to (1) address essential public health 
and safety conditions in our extremely busy court buildings; (2) meet 
the courts' space shortage requirements for conducting business, which 
includes our new Family Court, recently established by Congress; and 
(3) avoid interruption of ongoing projects, as that typically results 
in substantially increased costs.\2\ Significantly increased space 
needs for court operations and inadequate capital funding in prior 
years that necessitated maintenance deferral compel the Courts' 
significant capital request for fiscal year 2005.
---------------------------------------------------------------------------
    \2\ For example, in the last decade, the estimated cost for 
restoring the Old Courthouse has more than tripled.
---------------------------------------------------------------------------
    The Courts presently maintain 1.1 million gross square feet of 
space in Judiciary Square. The Courts are responsible for four 
buildings in the square: the Old Courthouse at 451 Indiana Avenue, the 
Moultrie Courthouse at 500 Indiana Avenue, N.W., and Buildings A and B, 
which are located between 4th and 5th Streets and E and F Streets, N.W. 
In addition, when the District government's payroll office vacates 
Building C, the old Juvenile Court, we anticipate that it will be 
returned to the Courts' inventory. Recent studies by the General 
Services Administration (GSA) have documented both the D.C. Courts' 
severe space shortage \3\ and the inadequacy of the physical condition 
of the Courts' facilities.\4\
---------------------------------------------------------------------------
    \3\ Master Plan for D.C. Courts Facilities, 2002.
    \4\ Building Evaluation Report, 2001.
---------------------------------------------------------------------------
    The recently completed Master Plan for D.C. Courts Facilities, 
secured by the General Services Administration (GSA), defined a present 
shortfall of 48,000 square feet of space, with a shortfall of 134,000 
square feet projected in the next decade. GSA proposed to meet the 
Courts' space needs through three mechanisms: (1) renovation of the Old 
Courthouse for use by this jurisdiction's court of last resort, the 
District of Columbia Court of Appeals, which will free critically 
needed space in the Moultrie Courthouse for trial court operations; (2) 
construction of an addition to the Moultrie Courthouse, a major portion 
of which will be developed as a separately accessible Family Court 
facility; and (3) the future occupation of Building C, adjacent to the 
Old Courthouse.
    The restoration of the Old Courthouse for use by the District of 
Columbia Court of Appeals is pivotal to meeting the space needs of the 
entire court system. We are very pleased that the President has 
recognized the importance of this project by supporting it in his 
budget recommendation. Investment in the restoration of the Old 
Courthouse not only will improve efficiencies by co-locating the Court 
of Appeals with all related support offices, but also will provide 
37,000 square feet of space critically needed in the Moultrie 
Courthouse for Superior Court and Family Court functions. The Moultrie 
Courthouse is uniquely designed to meet the needs of a busy trial 
court. It has three separate and secure circulation systems--for 
judges, the public, and the large number of prisoners present in the 
courthouse each day. The Moultrie Courthouse was completed in 1978 for 
the District of Columbia Court of Appeals and a 44 judge trial court, 
the Superior Court. Today it is strained beyond capacity to accommodate 
62 associate judges and 24 magistrate judges in the trial court, as 
well as senior judges and support staff for the two courts. Essential 
criminal justice and social service agencies also occupy office space 
in the Moultrie Courthouse. The Courts have clearly outgrown the space 
available in the Moultrie Courthouse. The space is inadequate for this 
high volume court system to serve the public in the heavily populated 
metropolitan area in and around our Nation's Capital. The Courts 
require well-planned and adequate space to ensure efficient operations 
in a safe and healthy environment.
                       historic judiciary square
    The historical and architectural significance of Judiciary Square 
lend dignity to the important business conducted by the Courts and, at 
the same time, complicate somewhat efforts to upgrade or alter the 
structures within the square. As one of the original and remaining 
historic green spaces identified in Pierre L'Enfant's plan for the 
capital of a new nation, Judiciary Square is of keen interest to the 
Nation's Capital.
    The Old Courthouse, the centerpiece of the historic Judiciary 
Square, built from 1821 to 1881, is one of the oldest buildings in the 
District of Columbia. Inside the Old Courthouse, Daniel Webster and 
Francis Scott Key practiced law, and John Surratt was tried for his 
part in the assassination of President Abraham Lincoln. The 
architectural and historical significance of the Old Courthouse led to 
its listing on the National Register of Historic Places and its 
designation as an official project of Save America's Treasures. The 
unique character of the building, together with its compact size, makes 
it ideal for occupancy by the highest court of the District of 
Columbia. At the same time, the structure is uninhabitable in its 
current condition and requires extensive work to meet health and safety 
building codes and to readapt it for use as a courthouse. Since it has 
been vacated, and with the support of Congress, the Courts have been 
able to take steps to prevent its further deterioration. The 
restoration of the Old Courthouse for use as a functioning court 
building will not only provide much needed space for the Courts, but it 
will also impart new life to one of the most significant historic 
buildings and precincts in Washington, DC. It will meet the needs of 
the Courts and benefit the community through an approach that 
strengthens a public institution, restores a historic landmark, and 
stimulates neighborhood economic activity.
    Buildings A, B, and C, dating from the 1930's, are situated 
symmetrically along the view corridor comprised of the National 
Building Museum, the Old Courthouse, and John Marshall Park and form 
part of the historic, formal composition of Judiciary Square. These 
buildings have been used primarily as office space in recent years, 
with a number of courtrooms in operation in Building A. The Superior 
Court's two highest volume courtrooms, Small Claims and Landlord and 
Tenant, moved into Building B in November 2003. This move has freed 
space in the Moultrie Building needed immediately for the Family Court, 
permitting the construction, scheduled to be complete in July of this 
year, of three new courtrooms, three new hearing rooms, a centralized 
case intake facility, a family-friendly waiting area, a separate 
courthouse entrance, and District government liaison offices for family 
matters.
    The H. Carl Moultrie I Courthouse, built in the 1970's, while not 
historic, is also located along the view corridor and reinforces the 
symmetry of Judiciary Square through its similar form and material to 
the municipal building located across the John Marshall Plaza. 
Currently the Moultrie Courthouse provides space for most Court of 
Appeals, Superior Court, and Family Court operations and clerk's 
offices, as previously described.
                      judiciary square master plan
    The National Capital Planning Commission (NCPC) required that the 
D.C. Courts develop a Master Plan for Judiciary Square--essentially an 
urban design plan--before any construction could be commenced in the 
area. The D.C. Courts have worked with all stakeholders on the Plan, 
including the United States Court of Appeals for the Armed Forces, the 
National Law Enforcement Officers Memorial Fund (Memorial Fund), the 
Newseum, and the Metropolitan Police Department. A draft Judiciary 
Square Master Plan was submitted to the NCPC in June 2003 and 
subsequently approved in August 2003. We plan to submit the finalized 
Judiciary Square Master Plan next month, in March 2004.
    The Judiciary Square Master Plan integrates the facilities 
development program of the Courts into a rapidly changing and publicly 
oriented area of the District. The Plan resolves important technical 
issues related to access, service, circulation, and security while re-
establishing the importance of this historic setting in the ``City of 
Washington.'' It provides a comprehensive framework for project 
implementation and lays the groundwork for the regulatory approval 
process with the National Capital Planning Commission, the U.S. 
Commission of Fine Arts, the District of Columbia Office of Historic 
Preservation, the District of Columbia Office of Planning, and the 
District of Columbia Department of Transportation, among others.
    The Judiciary Square Master Plan recommends (1) re-introduction of 
landscaped green space around court buildings and the construction of 
secure underground parking garages for the Courts' vehicles now parked 
in surface lots; (2) integration of a new service area, security 
features and landscape concept; and (3) coordination of the Courts' 
development with development of the National Law Enforcement Officers 
Museum by the Memorial Fund.
    The Judiciary Square Master Plan will ensure the preservation of 
one of the last original green spaces in the District of Columbia 
awaiting revitalization, incorporating areas where the public can 
gather and creating a campus-like environment where citizens can feel 
safe and secure. The Judiciary Square Master Plan will be of great 
benefit to the City of Washington.
                       master plan for facilities
    The Courts have been working with GSA on a number of our capital 
projects since fiscal year 1999, when the Courts assumed responsibility 
for our capital budget from the District's Department of Public Works. 
In 1999, GSA produced a pre-design study for the renovation of the Old 
Courthouse to house the D.C. Court of Appeals. In 2001, GSA prepared 
Building Evaluation Reports that assessed the condition of the D.C. 
Courts' facilities, which have been adversely affected by maintenance 
deferrals necessitated by severely limited capital funds in prior 
years. These projects culminated in the development of the first Master 
Plan for D.C. Court Facilities, which delineates the Courts' space 
requirements and provides a blueprint for optimal space utilization, 
both in the near and long term.
    The Master Plan for D.C. Court Facilities, completed in December 
2002, incorporates significant research, analysis, and planning by 
experts in architecture, urban design, and planning. During this study, 
GSA analyzed the Courts' current and future space requirements, 
particularly in light of the significantly increased space needs of the 
Family Court. The Master Plan examined such issues as alignment of 
court components to meet evolving operational needs and enhance 
efficiency; the impact of the D.C. Family Court Act of 2001 (Public Law 
Number 107-114); accommodation of space requirements through 2012; and 
planning to upgrade facilities, including, for example, security, 
telecommunications, and mechanical systems. The Plan identified a space 
shortfall for the Courts over the next decade of 134,000 occupiable 
square feet, and, as noted above, proposed to meet that need through 
renovation of the Old Courthouse for use by the D.C. Court of Appeals; 
construction of an addition to the Moultrie Courthouse; and 
reoccupation of Building C, adjacent to the Old Courthouse. In 
addition, the Plan determined that other court facilities must be 
modernized and upgraded to meet health and safety standards and to 
function with greater efficiency.
                    family court in the master plan
Interim Family Court Space Plan
    The Master Plan concluded that the Family Court would be most 
effectively and efficiently located in the Moultrie Courthouse. The 
Master Plan incorporates an interim space plan that provides the 
facilities necessary to fully implement the Family Court Act, as well 
as a long term plan that optimizes space and programmatic enhancements 
for family matters. The interim space plan for Family Court will be 
complete in the summer of 2004, and fully consolidates public functions 
on the JM level of the Moultrie Courthouse. As this interim space plan 
proceeds towards completion, procedural changes have been implemented 
within the Family Court that meet the requirements of the Family Court 
Act. Essential capital components of the plan are straightforward:
  --During fiscal year 2002, the Courts constructed and reconfigured 
        space in the Moultrie Courthouse to accommodate nine new Family 
        Court magistrate judges and their support staff. The Courts 
        also constructed four new hearing rooms in Building B for 
        Family Court magistrate judges hearing child abuse and neglect 
        cases and renovated short-term space for the Mayor's Services 
        Liaison Office.
  --Two Superior Court operations formerly located on the JM level of 
        the Moultrie Courthouse, Small Claims and Landlord and Tenant, 
        were relocated in November 2003 to Building B to free space for 
        the Family Court.
  --Construction on the JM Level of the Moultrie Courthouse began in 
        December 2003 and will provide three new courtrooms, three new 
        hearing rooms, the Mayor's Services Liaison Office, a 
        Centralized Family Court Case Filing and Intake Center, a 
        family-friendly child waiting area, and a new Family Court 
        entrance from the John Marshall Plaza into the Moultrie 
        Courthouse. In addition, the corridors and hallways along the 
        courthouse's JM-level will be redesigned to create family-
        friendly seating and waiting areas. This work will be complete 
        during the summer of 2004.
Long Term Family Court Space Plan
    The long-term plan to optimize space and provide programmatic 
enhancements for the Family Court includes expansion of the Moultrie 
Courthouse. The Courts are pleased that the President's 2005 budget 
provides funding for the design work for the Moultrie Courthouse 
expansion. Once complete, it will provide a state-of-the-art, family-
friendly facility for Family Court operations, with its own identity 
and separate entrance, which will be a model for the Nation. The plan 
envisions a safe facility that will be inviting and welcoming to 
families with children of all ages and that will incorporate a ``one-
stop'' concept by locating all related court units in one place and 
making it easier for families to access needed social services from 
D.C. government agencies. The interim Family Court plan was designed to 
transition smoothly into this long-term plan and to maximize the 
efficient use of time and money.
    The Master Plan studied the cost and feasibility of expanding the 
Moultrie Courthouse in the Feasibility Study for the H. Carl Moultrie I 
Courthouse--May 2003. This approach has been developed with the 
overarching objectives of keeping the court system continually 
operating efficiently, while carefully complying with the Family Court 
Act. Independent projects related to the Family Court Act include the 
renovation and expansion of the Old Courthouse to free space in the 
Moultrie Courthouse, system upgrades and renovation of Buildings A & B, 
occupation and renovation of Building C, leasing of space for functions 
not directly related to the public and court proceedings, and 
renovation and expansion of the Moultrie Courthouse. These projects 
will shift operations currently located in existing Court facilities 
(1) to create ``swing space'' that permits the required construction to 
take place in an operating courthouse that receives 10,000 members of 
the public daily and (2) to make contiguous space available for all 
related Family Court functions.
                       the courts' strategic plan
    The capital projects included in this request are an integral part 
of the Courts' Strategic Plan, completed in 2002. The Strategic Plan of 
the D.C. Courts, entitled ``Committed to Justice in the Nation's 
Capital'', articulates the mission, vision, and values of the Courts in 
light of current initiatives, recent trends, and future challenges. It 
addresses issues such as implementation of a Family Court, increasing 
cultural diversity, economic disparity, complex social problems of 
court-involved individuals, the increasing presence of litigants 
without legal representation, rapidly evolving technology, the 
competitive funding environment, emphasis of public accountability, 
competition for skilled personnel, and increased security risks.
    Improved facilities were a need identified as a high priority among 
all constituency groups surveyed by the Courts as the Strategic Plan 
was developed. ``Improving Court Facilities and Technology'' is the 
Plan's Strategic Issue 4. The Strategic Plan states:

    ``The effective administration of justice requires an appropriate 
physical and technical environment. Court personnel and the public 
deserve facilities that are safe, comfortable, secure, and functional, 
and that meet the needs of those who use them. Technology must support 
the achievement of the Courts' mission.''

    Two strategic goals relate to the facilities and technology 
enhancements in this capital budget:

    ``Goal 4.1: The Courts will provide personnel and court 
participants with a safe, secure, functional and habitable physical 
environment.
    ``Goal 4.2: The Courts will provide technology that supports 
efficient and effective case processing, court management, and judicial 
decision-making.''

    The fiscal year 2005 capital budget request will help the D.C. 
Courts attain these goals.
                  capital funding in fiscal year 2005
    To permit the Courts to continue to meet the needs of the community 
and the demands confronting the District's judicial branch, adequate 
resources are essential. The most critical issue we face today is 
sufficient capital funding to address the Courts' severe space shortage 
and aging infrastructure. Investment in these areas is critical to 
enable the Courts to provide to the public and our employees facilities 
that are safe, healthy, and reasonably up-to-date and to provide the 
type of security necessary to protect our citizens and our institution. 
Unless infrastructure needs are addressed, the functional capability of 
the Courts will decline and the quality of justice in the District of 
Columbia will be compromised.
    The first part of the Capital Budget request identifies projects to 
renovate, improve, and expand court facilities, as specified in the 
Master Plan for Facilities. The request is a comprehensive, 5-year 
plan, with projects divided into phases to the extent practicable: $63 
million is requested for the construction phase of the Old Courthouse 
renovation, which will begin in fiscal year 2005; $13.9 million is 
requested for the design phase of the Juvenile Holding area renovation, 
C Street Expansion, and Renovation and Reorganization portions of the 
Moultrie Courthouse Renovation and Expansion project in fiscal year 
2005. For design and pre-design work to renovate Buildings A and C and 
for phase 1 construction in Building A, $4.9 million is requested. We 
are very pleased that the President has supported these essential 
elements of our Master Plan in his fiscal year 2005 budget 
recommendations. In addition, to design and prepare signage and 
security lighting to guide the public through the court complex, which 
will become increasingly important as court operations move out of the 
Moultrie Courthouse, $2 million is requested.
    The second part of the Capital Budget request addresses the 
condition of the Courts' existing infrastructure, including projects 
necessary for the health and safety of the public in the courthouse and 
including the Integrated Justice Information System (IJIS). To meet 
these needs, the Courts make the following requests: $6 million for 
fire and security systems, as recommended by GSA and U.S. Marshal 
Service studies; $15 million for HVAC, Electrical and Plumbing Upgrades 
to remediate lead-contaminated drinking fountains, provide adequate 
ventilation, and meet electrical load needs, among other things; $1.1 
million to renovate dilapidated restrooms used by the public and court 
staff; $2.6 million for, among other things, ADA accessibility, safety 
repairs, and refurbishment of run-down areas in courtrooms and secure 
areas. To replace prisoner elevators, alleviating trial delays because 
of inability to transport incarcerated persons, $0.2 million is 
requested. To improve safety and ADA accessibility in public areas, to 
clean the exterior of the Courts' buildings, to replace doors and 
windows in historic Buildings A and B, and to make other general 
repairs, $9 million is requested. Finally, $2.83 million is requested 
for continued implementation of IJIS. While we are pleased that some of 
these projects, such as IJIS, elevators and escalators, and general 
repairs, have been supported, we remain concerned that continued 
deferral of needed maintenance projects will increase costs by delaying 
major work and by forcing inefficient repairs of equipment that has 
reached its expected life and requires major overhaul.
    The capital projects identified are critical to the Courts' ability 
to meet the current and future needs of the District of Columbia 
Courts. Approval of the requested capital funding in fiscal year 2005 
offers important advantages including: (1) addressing urgent public 
health and safety conditions in the Court's busy buildings; (2) 
allowing ongoing projects to continue without interruption, thereby 
avoiding increased costs occasioned by delays; (2) and meeting the 
Courts' critical space requirements, including our new Family Court.
                     status of key capital projects
Old Courthouse Restoration
    The D.C. Courts' numerous facilities renovation projects have 
converging critical scheduling paths. The Old Courthouse project is the 
first step in a series of interdependent moves that must progress in 
sequence to provide space and make way for the next step in the Courts' 
Master Plan. Since the pre-design study for the restoration was 
completed in 1999, the Courts have, with the support of Congress, taken 
steps to preserve the building, including making watertight the roof, 
and mothballing the building. Design of the Old Courthouse restoration 
began April 30, 2003 with the selection, from among nearly 30 bids in 
the General Services Administration procurement process, of Beyer 
Blinder Belle Architects and Planners LLP (BBB). BBB is a nationally 
renowned architectural and engineering firm whose historic preservation 
and renovation projects have included Grand Central Station, Ellis 
Island, and the U.S. Capitol. BBB has nearly completed the design for 
the first phase of the restoration, the parking garage to be shared by 
the U.S. Court of Appeals for the Armed Forces, and its construction is 
scheduled to commence later this year.
    The Commission of Fine Arts reviewed the preliminary concept design 
for the Old Courthouse on October 16, 2003. The Commission's 
recommendations were incorporated in the design, which is currently 50 
percent complete. Upon completion of this milestone, formal review by 
regulatory agencies (e.g., the Commission of Fine Arts (CFA) and the 
National Capital Planning Commission (NCPC)) is required for the 
project to proceed. The Courts are prepared to present the 50 percent 
complete design to the NCPC in March 2004. Formal review and approval 
of the Old Courthouse project must proceed expeditiously, as any delay 
will increase cost, contribute to further deterioration, and delay 
implementation of the Courts' Master Plan for Facilities, including 
enhancement to and the full consolidation of all Family Court related 
elements.
    Both the CFA and the NCPC called for a coordinated design or 
agreement between the Courts and the National Law Enforcement Museum 
(NLEM), which is authorized to build an underground museum with 
aboveground entrance pavilions on part of the site. At that time, it 
appeared that both projects were on similar construction schedules. 
Subsequently, we have learned that the NLEM construction may not 
commence until sometime between 2009 and 2012. The Old Courthouse 
construction is scheduled to commence in January 2005 with occupancy 
scheduled for January 2007.
    Our architects have prepared a ``Phase 1'' design that completes 
the Old Courthouse restoration without infringing on the area 
authorized by legislation for the museum. Therefore, an agreement on 
plaza entranceway design should not delay the restoration and use of 
this important public building. We recognize that coordination with the 
NLEM must continue, and that some modifications to the site may be 
necessary. However, the principles of aesthetics, urban design, 
planning, and the enhancement of historical, cultural and natural 
resources, which the CFA and NCPC must foster, will best be served by 
permitting the restoration of the historically and architecturally 
significant Old Courthouse to proceed.
Moultrie Courthouse Expansion
    The expansion of the Moultrie Courthouse is a key element in the 
long-term plan for Family Court. The expansion builds on the interim 
plan for the Family Court, scheduled to be complete the summer, that 
will consolidate the public face of the Family Court through a 
centralized intake center and space for the Mayor's Services Liaison 
Office and provide a separate entrance as well as new courtrooms, 
hearing rooms, and a family-friendly child waiting area. The expansion 
will complete the facilities enhancements for the Family Court 
providing, for example, additional space for child protection 
mediation, increased Child Care Center space, and safe and comfortable 
family waiting areas. It will also fully consolidate all administrative 
operations of the Family Court including relocation of juvenile 
probation (the Social Services Division) from Building B to the 
Moultrie Courthouse. A portion of the addition will meet critical space 
needs for other Superior Court operations. The Courts have requested, 
and the President supports, funds in fiscal year 2005 to design the 
addition. The addition is scheduled to be completed in 2009.
                    complete budget request summary
    To provide the highest level of justice to the public in the 
Nation's Capital and build on recent accomplishments, it is essential 
that the D.C. Courts receive additional resources in fiscal year 2005. 
The demands on the Courts require significant capital investments in 
facility infrastructure, security, and technology as well as 
operational investments to enhance the administration of justice and 
service to the public. Without additional capital resources, the 
Moultrie Courthouse and the District's historic Old Courthouse and 
Buildings A and B will continue to deteriorate, placing public health 
and safety at risk and undermining public trust and confidence in the 
judicial branch; the Courts' information technology will fail, 
threatening judicial decision-making and community safety; and needed 
security measures and equipment will not be installed, placing the 
Courts' buildings and the public at risk. Investments in operational 
enhancements will support strategic management; self-representation 
services; complete and accurate trial records; financial, materiel, and 
facilities management; and human resource development. Targeted 
investments in these critical areas are essential to ensuring that the 
Courts can fulfill their mission of providing quality justice in the 
District of Columbia. The Court's fiscal year 2005 budget request 
addresses these requirements by:
  --Investing in Infrastructure.--The fiscal year 2005 capital request 
        reflects significant study and planning detailed in the D.C. 
        Courts' Master Plan for Facilities. As noted above, today the 
        Courts have a space shortfall of nearly 45,000 occupiable 
        square feet, which is projected to rise to a 134,000 square 
        feet shortfall over the next 10 years. To begin to address the 
        Courts' space needs and ensure the health, safety, and quality 
        of court facilities, the fiscal year 2005 capital request 
        includes $120,930,000.
      Included in the capital budget request is $63,000,000 for the 
        construction phase of the Old Courthouse restoration project, 
        which will adapt it for reuse by the Court of Appeals. The Old 
        Courthouse is an architectural jewel located in one of the 
        significant green areas of the District original to the 
        L'Enfant Plan for the capital city. Construction of the 
        accompanying garage, which will be shared with the U.S. Court 
        of Appeals for the Armed Forces, and remove surface parking, 
        will begin during 2004. Restoring this historic landmark to 
        meet the urgent space needs of the Courts and preserving it for 
        future generations are critical priorities for the District of 
        Columbia Courts.
      Also included in the capital budget request is $13,900,000 to 
        begin work on the Moultrie Courthouse expansion, as delineated 
        in the Master Plan. This amount includes $6,000,000 for the 
        design phase of the C Street Expansion, which, as noted above, 
        will complete the facilities enhancements for the Family Court 
        and meet critical space needs for Superior Court operations. 
        The total also includes $3,900,000 to renovate and expand space 
        in the Moultrie Courthouse for the juvenile holding area and 
        $4,000,000 for the first phase of the renovation and 
        reorganization of the Moultrie Courthouse, to make optimal use 
        of existing space as envisioned in the Master Plan.
      In addition, the capital budget request includes $34,300,000 to 
        maintain the Courts' existing infrastructure, preserving the 
        health and safety of courthouse facilities for the public and 
        the integrity of historic buildings for the community.
  --Enhancing Public Security.--The Courts are responsible for the 
        protection of 10,000 members of the public who enter the 
        courthouse each day, among them local and international 
        visitors and 1,200 court employees. To meet the increased 
        security threat post-September 11, 2001, the Courts request 
        $6,956,000. Included in this figure are: $956,000 in 
        operational expenditures for additional contractual security 
        officers and $6,000,000 to finance capital security 
        improvements recommended by a U.S. Marshal Service Physical 
        Security Survey and a GSA Preliminary Engineering Report, 
        including design, construction, and installation of a new 
        security system, as well as additional security cameras, duress 
        alarms and upgrades.
  --Investing in Information Technology (IT).--The Courts are mandated 
        to operate an automated, integrated case management system to 
        provide accurate, comprehensive case data across every 
        operating area and appropriate case data to the judiciary, the 
        District's child welfare and criminal justice communities, and 
        the public. To meet this mandate and achieve the Courts' 
        strategic goal of improving court technology, the Courts 
        request $6,729,000 and 6 FTEs in fiscal year 2005. This amount 
        includes $3,899,000 in the operating budget for infrastructure 
        enhancements, upgrade of IT operations and implementation of 
        the disciplined processes the General Accounting Office (GAO) 
        had recommended for the Integrated Justice Information System 
        (IJIS) project. In addition, the Courts' capital budget request 
        includes $2,830,000 to finance fiscal year 2005 procurement of 
        IJIS, which the Court launched in fiscal year 1999. 
        Implementation of IJIS is well underway, with Wave 1 of the 
        Family Court module operational in August 2003 and Wave 2 
        operational in December 2003.
  --Strategic Planning and Management.--To support long-range strategic 
        planning and management, including the development and 
        assessment of organizational performance measures, $571,000 is 
        requested. A comprehensive performance measurement system is a 
        critical element in accountability to the public and would 
        enable the Courts to report performance to the community. In 
        addition, an Office of Strategic Management is essential to 
        make the Courts' strategic plan the dynamic, evolving document 
        that it must be to focus resources, priorities and actions. 
        Specifically, the request would finance performance management 
        software, training, and knowledgeable staff with the expertise 
        to institutionalize a proactive, coordinated approach to 
        management including the establishment, analysis, and use of 
        performance measures for strategic decision-making.
  --Serving the Self-Represented.--To enhance equal access to justice 
        for the more than 50,000 litigants without lawyers who come to 
        the D.C. Courts each year, especially in the Family Court, 
        Civil Division, and Court of Appeals, $2,096,000 and 13 FTEs 
        are requested for staff and facilities to establish a Self-
        Representation Service Center. This amount includes $212,000 
        and 3 FTEs to assume responsibility for the operation, on a 
        full-time basis, of the award-winning Family Court Self-Help 
        Center, which is currently only a part-time operation supported 
        by volunteers from the D.C. Bar. The Courts would adopt best 
        practices in assisting the unrepresented with numerous 
        important legal issues and build on the public information 
        kiosk project being implemented in fiscal year 2003 and the 
        very limited pro bono services currently available.
  --Investing to Ensure Accurate and Complete Trial Records.--The 
        Courts' fiscal year 2005 request includes $1,636,000 and 12 
        FTEs to improve the production of the court record. Maintaining 
        complete and accurate court records are central to the fair 
        administration of justice in a court system. Accurate and 
        complete records of court proceedings are critical to ensuring 
        a fair trial and to preserving a record for appeal. This 
        request includes funds to upgrade the Courts' digital recording 
        system that is installed in 80 courtrooms and has exceeded its 
        useful life, and funds to hire additional court reporters who 
        are essential for certain types of proceedings, such as felony 
        trials.
  --Enhanced and More Timely Public Service.--To enhance and provide 
        more timely services to the public, the Courts' fiscal year 
        2005 request includes $2,198,000 and 15 FTEs to support 
        operating division initiatives in family, landlord and tenant, 
        probate, crime victim's compensation, the juror's office, court 
        interpreting services, and the Superior Court law library. 
        Included in the total is $1,000,000 to restore and preserve 
        Probate Division records that are required, by statute, to be 
        maintained forever and readily available to the public. This 
        funding will build on the Courts' recent accomplishments, 
        discussed above, and ensure that the highest quality services 
        are provided.
  --Financial, Materiel, and Facilities Management.--To enhance 
        financial, materiel, and facilities management, $2,267,000 and 
        17 FTEs are requested. Included in the total are $623,000 and 8 
        FTEs to enhance financial and program management, including a 
        new internal audit team; $898,000 and 1 FTE for materiel 
        management, including warehouse space, equipment, and staff; 
        and $746,000 and 8 FTEs to enhance facilities management, 
        including building engineers and capital project management 
        staff.
  --Investing in Human Resources.--To help the Courts attract, develop, 
        and retain highly qualified employees and address the risks of 
        high retirement eligibility, $1,167,000 is requested for 
        succession planning, leadership development, tuition 
        assistance, enhanced benefits and specialized training for 
        court personnel. Currently, 27 percent of the Courts' non-
        judicial employees, of whom 16 percent are in top management 
        positions, are eligible to retire in the next 5 years, 
        representing a potential for a tremendous loss of experience 
        and talent that the Courts must plan now to address.
  --Strengthening Defender Services.--In recent years, the Courts have 
        devoted particular attention to improving the financial 
        management and reforming the administration of the Defender 
        Services programs. For example, the Courts have significantly 
        revised the Criminal Justice Act (CJA) Plan for representation 
        of indigent defendants and issued Administrative Orders to 
        ensure that CJA claims are accompanied by adequate 
        documentation and that only highly qualified attorneys 
        participate in the program. To enhance the financial management 
        of the CJA program, the Courts assumed responsibility for 
        issuing attorney claim vouchers from the Public Defender 
        Service (PDS). Consolidation of responsibility for all 
        financial management aspects of the Defender Services programs 
        will enable the Courts to estimate more accurately program 
        obligations throughout the voucher processing cycle. To build 
        on these initiatives and more comprehensively exert greater 
        management control over the Defender Services appropriation 
        from a programmatic, rather than a financial perspective, the 
        Courts request $91,000 and 1 FTE in the fiscal year 2005 
        operating budget.
      In the Defender Services account, the fiscal year 2005 budget 
        request represents a net increase of $18,500,000 over the 
        fiscal year 2004 Enacted level of $32,000,000 to fund hourly 
        rate increases. Of the total request, $9,500,000 would provide 
        appropriated funding for the March 2002 rate increase for 
        Defender Services attorneys and investigators. This increase, 
        enacted in the D.C. Appropriations Act, 2002, has been funded 
        to-date through a reserve in the account, which is now 
        depleted. Also included in the total request is $9,000,000 for 
        an increase in the hourly compensation rates for attorneys from 
        $65 to $90, to keep pace with the rate paid court-appointed 
        attorneys at the Federal courthouse across the street from the 
        D.C. Courts.
                               conclusion
    Mister Chairman, Senator Landrieu, Subcommittee members, the 
District of Columbia Courts have long enjoyed a national reputation for 
excellence. We are proud of the Courts' record of administering justice 
in a fair, accessible, and cost-efficient manner. Adequate funding for 
the Courts' fiscal year 2005 priorities is critical to our success, 
both in the next year and as we implement plans to continue to provide 
high quality service to the community in the future. We appreciate the 
President's level of support for the Courts' funding needs in 2005, and 
the support we have received from the Congress. We look forward to 
working with you throughout the appropriations process, and we thank 
you for this opportunity to discuss the fiscal year 2005 budget request 
of the Courts.

    Senator DeWine. Thank you.
    Judge Wagner. Thank you, sir.
    Senator DeWine. Judge King.

                 STATEMENT OF JUDGE RUFUS G. KING, III

    Judge King. Good morning, Mr. Chairman and Senator 
Landrieu. It is a pleasure to be back here and primarily to 
express my gratitude on behalf of the Superior Court, at any 
rate, for your support for our budget in the past and the 
President's support for our budget as we go forward with the 
construction plan.
    We are engaged in the execution of a complex master plan 
that runs over 10 years. We have outlined that in our written 
submission, which I trust will be included in the record.
    Senator DeWine. It will be made a part of the record.
    Judge King. I adopt Chief Judge Wagner's oral statement as 
well, and I will just make a point or two.
    Thus far, the construction in the Moultrie Building to 
round out the first part of the Family Court renovations is on 
time and in budget. My commitment is to try to keep it that 
way. And to that end, my door is always open and my phone lines 
are always open for any discussions that are needed to help 
that process along.
    The one point that I just want to put on the record, 
because I know it is capable of getting lost in the shuffle is: 
The President did not support our request for capital funding 
for the aging infrastructure. Our building is 30 years old, 
essentially. The systems, the HVAC and mechanical systems and 
electrical and so on, are all at the end of their useful life.
    I personally have had an occasion when the temperature in 
my courtroom rose to above 90 degrees, because the air 
conditioning had failed. We just had to adjourn for the day. 
And that is very frustrating when you have a judge ready to go, 
staff ready to go, marshals ready to go, and the lawyers are 
prepared to try the case, and you just cannot try the case. So 
that is an issue that is over the horizon.
    There is a $15 million request for aging infrastructure, 
renovation and maintenance that has not been addressed. And at 
some point, it is going to need to be addressed.
    But I am very grateful for the support for the capital 
budget. And I will be glad to answer questions.
    Senator DeWine. Good.
    Judge King. Thank you.
    Senator DeWine. Senator Landrieu.
    Senator Landrieu. Could you all just, Judge, just hit--
would you just hit the highlights again of the--I know you have 
given us the time frame in the documents here. But just review 
for me on this plan that you have, when the Courts move into 
what building, so that I could just get a sense of when the 
Family Court will be in their new facility? What is the general 
time line, if you have it handy? If you do not, I understand.

                      COURT CONSTRUCTION SCHEDULE

    Judge Wagner. I do not have it handy, but I can--let me 
see.
    Judge King. I can give you most of the basic points. The 
Family Court will be moved--all of the public functions of the 
Family Court will be moved into the JM and first floor levels 
of the Moultrie Courthouse as of July of this year, in about 5 
months, 6 or 5 months.
    I believe the move for the Court of Appeals is scheduled 
for 2005. The actual occupancy is a little bit later, but the 
construction starts in 2005. When that move is accomplished in 
2007, we will then round out the relocation of various 
functions to bring all of the office or administrative 
functions of the Family Court into the JM and the first floors.
    Senator Landrieu. So I am understanding that the Family 
Court basically moves first into their renovated space. They 
are moving first into their renovated space.
    Judge King. That is correct.
    Senator Landrieu. Is that correct?
    Judge King. That is correct.
    Senator Landrieu. And then the next piece is the----
    Judge King. The C Street Expansion----
    Senator Landrieu [continuing]. Renovation.
    Judge King [continuing]. Which will begin in 2006.
    The C Street Expansion is finished in 2009. We are running 
with design phases while we are doing the building of the Old 
Courthouse and then----
    Senator Landrieu. You all have--you are in the position to 
have control of this schedule so that--because they are really 
moving pieces. And those pieces have to move in a way that 
really helps us to meet these time lines to get these Courts 
functioning in the new spaces that we are trying to provide. 
And you all know that any barriers to move people or the 
authority to make the contractors even move faster or get out 
of the way or the architects--I mean, do you all feel like you 
have blue skies ahead, or do you need us to do anything that 
helps you to make sure you stay on the schedule?
    Judge King. The one thing that we have almost no control 
over is the funding, and we are looking to you for that, and 
you have been very supportive. But given the funding, we have 
more barriers to----
    Senator Landrieu. But if the funding, you know, is short, 
then it puts a crimp in this particular formula.
    Judge King. That is correct. That is correct.
    Senator Landrieu. Okay.
    Judge King. If the funding is not there, then we have to 
come up with alternatives.
    Senator Landrieu. All right.
    Judge Wagner. And the Courts' plans have to be approved by 
the regulatory agencies during this process. While we do not 
control that, we try to cooperate with them to get all of our 
submissions in so that we cause no delays.
    Senator Landrieu. Thank you.
    Senator DeWine. Let me invite our other panelists to come 
up.
    Craig Floyd is the Chairman and Executive Director of the 
National Law Enforcement Officers Memorial Fund. Patricia 
Gallagher is the Executive Director of the National Capital 
Planning Commission. And Frederick Lindstrom is the Assistant 
Secretary of the Commission of Fine Arts since 2001.
    Ms. Gallagher, let us start with you. If you can--we have 
everyone's written statement, which will become a part of the 
record.
    Ms. Gallagher, if you could make some comments, and then we 
will move to Mr. Lindstrom, and Mr. Floyd.
STATEMENT OF PATRICIA GALLAGHER, EXECUTIVE DIRECTOR, 
            NATIONAL CAPITAL PLANNING COMMISSION
ACCOMPANIED BY CHRISTINE SAUM, SENIOR URBAN DESIGNER, NATIONAL CAPITAL 
            PLANNING COMMISSION

    Ms. Gallagher. Good morning, Senator. Is this on?
    Senator DeWine. Yes, if you push it down, that is--yes.
    Ms. Gallagher. Thank you. Good morning, Mr. Chairman, 
Senator Landrieu, and members of the subcommittee. I am Patti 
Gallagher, Executive Director of the National Capital Planning 
Commission. On behalf of the Commission, I thank you for this 
opportunity to testify.
    We understand from the Conference report language in the 
Omnibus bill that there is concern that NCPC may be delaying 
the District of Columbia Courts' plans to renovate the Old City 
Hall at Judiciary Square, and we are here today to assure you 
and the members of the subcommittee that NCPC has not delayed 
this renovation.
    NCPC began working closely with the Courts and the National 
Law Enforcement Officers Memorial Fund in Spring 2003 during 
the preparation of the draft Judiciary Square Master Plan. In 
May 2003, the Courts gave an informational presentation on the 
master plan to our Commission. And then in August 2003, the 
Commission adopted this draft plan.
    NCPC staff has been working closely with both parties to 
ensure that the redevelopment of Judiciary Square, including 
the Old City Hall renovation, meets the highest standards of 
planning and urban design. This process is complicated in that 
we are working to satisfy the requirements of two legislative 
mandates, the National Law Enforcement Museum Act of 2000, and 
the District of Columbia Family Courts Act of 2001.
    Through the latter, Congress mandated to the D.C. Courts 
that they have to reorganize and improve the Courts' services 
and facilities.
    In the National Law Enforcement Museum Act, Congress 
authorized the Memorial Fund to build its museum on Federal 
land that partially abuts the Old District of Columbia City 
Hall, which is to be expanded and renovated for re-use by the 
District of Columbia Court of Appeals. The Act requires the 
Memorial Fund to construct the majority of its museum 
underground and limit its aboveground construction to two 
10,000-square-foot entrance pavilions.
    In addition, the Act requires a 90-foot setback from the 
renovated Old City Hall and a requirement to maintain a 100-
foot-wide zone, or plaza, on the north-south axis of the Old 
City Hall where no aboveground museum construction is 
permitted. These areas are depicted on the map attached to my 
written testimony.
    Our Commission is faced with the challenge of complying 
with both mandates, while respecting each of the parties' 
separate and distinct visions for the common plaza area. The 
Courts and the Memorial Fund each consider the plaza to be a 
key part of the entrances to their buildings, and they continue 
to fundamentally disagree on the level of construction and 
design control each party is permitted to have within the plaza 
area.
    The Memorial Fund asked NCPC in its March and May 2003 
submissions to review proposed memorial designs and museum 
designs that would have interfered with the entrance to the 
renovated Old City Hall. Since these submissions were clearly 
in conflict with the Act's requirement that the plaza area be 
kept open, the applicant withdrew both submissions.
    Subsequently, in July 2003, the Courts submitted its draft 
Judiciary Square Master Plan. This master plan depicted the 
plaza as an unobstructed open space extending from the 
renovated courthouse's new entrance to E Street, Northwest. The 
Memorial Fund opposed that aspect of the master plan on the 
basis that it, not the Courts, had the authority to design the 
plaza area.
    As Congress has addressed, the renovation of the Old City 
Hall for re-use by the Courts is an important Federal project. 
And delays in its construction could needlessly increase the 
cost to taxpayers.
    Our Commission recognized this urgency and on August 7, 
2003 approved the draft Judiciary Square Master Plan. And in an 
effort to move both projects forward, our Commission departed 
from its normal process of requiring an approved master plan, 
and authorized the Courts and the Memorial Fund to proceed with 
the design submissions for their individual projects.
    A unified integrated plaza design is essential for both 
projects to have unimpeded access to their respective 
entrances. Therefore, our Commission asked the parties to 
mutually agree on a design solution before requesting further 
NCPC approval.
    Although NCPC staff has been working with both sides since 
last spring to facilitate an acceptable solution, we are unable 
to report progress, that an agreement has been reached. 
However, on February 13th, the Courts presented to the NCPC 
staff for the first time an interim design that would maintain 
the plaza as an open area, and one that would provide 
sufficient space for the Memorial Fund to construct its 
entrance pavilions while allowing both projects open access to 
their respective entrances.
    The Courts' proposed design is an uncomplicated landscape 
solution that could be modified when the Memorial Fund 
completes its fund raising and is prepared to proceed with 
construction.
    We understand that the Courts are prepared to move forward 
with this interim design despite the inevitable disruption to 
the plaza area and its entrances once the design of--once the 
museum design construction begins.
    Our staff opinion of the Courts' interim design is that it 
appears to respect the design parameters set out in the 
National Law Enforcement Museum Act. We feel that it is a 
viable solution that should satisfy both parties and allow the 
Courts' construction project to move forward.

                           PREPARED STATEMENT

    We have spoken to both the Courts and the Memorial Fund to 
encourage the use of this interim design as an acceptable 
solution and have informed them that this design, if accepted 
by both parties, would be eligible for immediate review by our 
Commission. Our staff and the Commission will do our utmost to 
accommodate the Courts' timetable and to complete our review as 
expeditiously as possible.
    Mr. Chairman, this concludes my testimony.
    Senator DeWine. Thank you very much.
    [The statement follows:]
                 Prepared Statement of Patti Gallagher
    Good morning Mr. Chairman and members of the Committee. I am Patti 
Gallagher, Executive Director of the National Capital Planning 
Commission (NCPC). I would like to thank you on behalf of the 
Commission for this opportunity to testify. We understand from the 
Conference report language in the Omnibus bill that there is concern 
NCPC may be delaying the District of Columbia Courts' plans to renovate 
the Old City Hall at Judiciary Square. I would like to assure you and 
the members of this Committee that NCPC has not delayed this 
renovation.
    NCPC began working closely with the Courts and the National Law 
Enforcement Officers Memorial Fund (Memorial Fund) in spring 2003 
during the preparation of the draft Judiciary Square Master Plan. In 
May 2003 the Courts gave an information presentation on the master plan 
to our Commission, which adopted the draft plan in August 2003. NCPC 
staff has been working closely with both parties to ensure that the 
redevelopment of Judiciary Square, including the Old City Hall 
renovation, meets the highest standards of planning and urban design.
    This process is complicated in that we are working to satisfy the 
requirements of two legislative mandates--the National Law Enforcement 
Museum Act (Public Law 106-492) and the District of Columbia Family 
Courts Act of 2001. Through the latter, Congress mandated to the D.C. 
Courts that they reorganize and improve the Courts' services and 
facilities. In the National Law Enforcement Museum Act (the Act), 
passed in November 2000, Congress authorized the Memorial Fund to build 
its museum on Federal land that partially abuts the Old District of 
Columbia City Hall, which is to be expanded and renovated for re-use by 
the District of Columbia Court of Appeals. The Act requires the 
Memorial Fund to construct the majority of its museum underground and 
limit its aboveground construction to two 10,000-square-foot entrance 
pavilions. In addition, the Act requires a 90-foot setback from the 
renovated Old City Hall and a requirement to maintain a 100-foot-wide 
zone, or plaza, on the north-south axis of the Old City Hall where no 
aboveground museum construction is permitted. These areas are depicted 
on the attached map.
    Our Commission is faced with the challenge of complying with both 
mandates, while respecting each of the parties' separate and distinct 
visions for the common plaza area. The Courts and the Memorial Fund 
each consider the plaza to be a key part of the entrances to their 
buildings and they continue to fundamentally disagree on the level of 
construction and design control each party is permitted to have within 
the plaza area.
    The Memorial Fund asked NCPC in its March and May 2003 submissions 
to review proposed museum designs that would have interfered with the 
entrance to the renovated Old City Hall. Since these submissions were 
clearly in conflict with the Act's requirement that the plaza area be 
kept open, the applicant withdrew both submissions. Subsequently, in 
July 2003, the Courts submitted its draft Judiciary Square Master Plan. 
This master plan depicted the plaza as an unobstructed open space 
extending from the renovated courthouse's new entrance to E Street NW. 
The Memorial Fund opposed that aspect of the master plan on the basis 
that it, not the Courts, had the authority to design the plaza area.
    As Congress has addressed, the renovation of the Old City Hall for 
re-use by the Courts is an important Federal project and delays in its 
construction could needlessly increase the cost to taxpayers. Our 
Commission recognized this urgency and on August 7, 2003 approved the 
draft Judiciary Square Master Plan. In an additional effort to move 
both projects forward, our Commission departed from its normal process 
of requiring an approved master plan, and authorized the Courts and the 
Memorial Fund to proceed with design submissions for their individual 
projects.
    A unified integrated plaza design is essential for both projects to 
have unimpeded access to their respective entrances. Therefore, our 
Commission also asked the parties to mutually agree on a design 
solution before requesting further NCPC approval. Although NCPC staff 
has been working since August with both sides to facilitate an 
acceptable solution, we are unable to report that an agreement has been 
reached. Very recently however, on February 13, 2004 the Courts 
presented to NCPC for the first time an interim design that would 
maintain the plaza as an open area, and provide sufficient space for 
the Memorial Fund to construct its entrance pavilions while allowing 
both projects open access to their respective entrances. The Courts' 
proposed design is an uncomplicated landscape solution that could be 
modified when the Memorial Fund completes its fundraising and is 
prepared to proceed with construction of the museum. We understand that 
the Courts are prepared to move forward with this interim design 
despite the inevitable disruption to the plaza area and its entrance 
once the museum begins construction.
    Our staff opinion of the Courts' interim design is that it appears 
to respect the design parameters set out in the Act. We feel that it is 
a viable solution that should satisfy both parties and allow the 
Courts' construction project to move forward. We have spoken with both 
the Courts and the Memorial Fund to encourage the use of this interim 
design as an acceptable solution and have informed them that this 
design, if accepted by both parties, would be eligible for immediate 
review by our Commission. Our staff and the Commission will do our 
utmost to accommodate the Courts' timetable and to complete our review 
as expeditiously as possible.
    This concludes my testimony. I would be happy to answer any 
questions you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator DeWine. Mr. Lindstrom.
STATEMENT OF FREDERICK J. LINDSTROM, ASSISTANT 
            SECRETARY, U.S. COMMISSION OF FINE ARTS
    Mr. Lindstrom. Certainly. Good morning, my name is 
Frederick Lindstrom, and I am the Assistant Secretary of the 
Commission of Fine Arts. I am substituting today for our 
Secretary, Charles Atherton, who could not be present today.
    The Commission appreciates the opportunity to join the 
discussion on the status of the renovations to the Old City 
Hall for the D.C. Court of Appeals and the construction of the 
new National Law Enforcement Museum. As you know, discussions 
relating to the renovation of the Old City Hall date back quite 
a few years, and the Commission has been supportive of the 
building's reuse as an operating courthouse.
    The existing configuration of the monumental entrance on 
this important building does not allow for ADA accessibility; 
nor will it allow for the addition of the required visitor 
security screening facility on the south side of the building 
without adversely affecting the structure's historic character. 
Therefore, the Courts have pursued reestablishing a new public 
entrance on the north side of the building, where one existed 
up until the 1917 renovation.
    With the passage of Public Law 106-492, that authorized and 
specified the location of the new museum, it has been our 
expectation that both projects would be able to coexist in 
Judiciary Square and that the sponsors and their architects 
would fully coordinate and cooperate on developing the designs. 
So far, the Commission has been disappointed by the lack of 
coordination and cooperation and the inability to develop 
complementary designs that will enhance the historic setting of 
Judiciary Square.
    The Commission believes that the new museum serves a very 
worthy objective. However, access to the Courts building should 
not be obstructed or physically compromised by another use. The 
dignity of the public entrance to the courthouse must come 
first.
    We believe that other designs should be investigated to see 
if the Courts and the Law Enforcement Museum can achieve the 
openness and accessibility that both projects desire and 
deserve. With passage of Public Law 106-492, that has in a way, 
since that was signed into law, has inhibited that exploration 
of other possibilities, at least for the museum.
    One possible way that we have suggested, the Commission has 
suggested to avoid the inherent conflicts between the museum 
and the Courts, would be to locate the museum's main entrances 
to the other side of E Street, at the southern edge of the 
Memorial Plaza. And this is a realistic possibility considering 
that the major portion of the underground museum has been 
authorized to extend under E Street to its northern curb line. 
And there may be other alternatives worth exploring as well.

  PREPARED STATEMENT OF CHARLES H. ATHERTON, SECRETARY, COMMISSION OF 
                               FINE ARTS

    From the very beginning of the review process, we have 
emphasized the need for coordination of all the projects 
currently slated for Judiciary Square, and there are quite a 
few projects that are slated for the Square at this time. And 
it is essential that all of these projects be fully coordinated 
and work in a cooperative fashion for an acceptable design to 
be achieved.
    This concludes our written testimony, and I would be happy 
to respond to any questions you might have, Mr. Chairman.
    Senator DeWine. Yes. Thank you very much.
    [The statement follows:]
               Prepared Statement of Charles H. Atherton
    Good Morning, my name is Charles Atherton and I am the Secretary of 
the Commission of Fine Arts. The Commission appreciates the opportunity 
to join your discussion on the status of the renovations to the Old 
City Hall for the D.C. Court of Appeals and the construction of the new 
National Law Enforcement Museum. As you may know, discussions related 
to the renovation of the Old City Hall date back quite a few years and 
the Commission has been supportive of the building's reuse as an 
operating courthouse. The existing configuration of the monumental 
entrance on this important building does not allow for ADA 
accessibility, nor will it allow for the addition of the required 
visitor screening facility on this side of the building without 
adversely affecting the structure's historic character. Therefore, the 
Courts have pursued reestablishing a new public entrance to the north 
side of the building, where one existed until the 1917 renovation.
    With the passage of Public Law 106-492, that authorized and 
specified the location of the museum, it has been our expectation that 
both projects would be able to coexist in Judiciary Square and that the 
sponsors and their architects would fully coordinate and cooperate on 
the designs. So far, the Commission of Fine Arts has been disappointed 
by the lack of coordination and cooperation and the inability to 
develop complementary designs that will enhance the historic setting of 
Judiciary Square. The Commission believes that the new museum serves a 
worthy objective, however; access to the court building should not be 
obstructed or physically compromised by another use. The dignity of the 
public entrance to a courthouse must come first.
    We believe that other designs should be investigated to see if the 
Courts and the Law Enforcement Museum can achieve the openness and 
accessibility that both projects desire and deserve. One possible way 
to avoid the inherent conflicts between the museum and the courts would 
be to locate the museum's main entrance(s) to the other side of E 
Street, at the southern edge of the memorial plaza. This is a realistic 
possibility considering that a major portion of this underground museum 
has been authorized to extend under E Street to its northern curb line. 
There maybe other alternatives as well.
    From the beginning of the review process we have emphasized the 
need for coordination of all the projects currently slated for 
Judiciary Square. It is essential if an acceptable design is to be 
achieved.
    This concludes our written testimony. I would be happy to respond 
to any questions you might have.

    Senator DeWine. Mr. Floyd.
STATEMENT OF CRAIG W. FLOYD, CHAIRMAN, NATIONAL LAW 
            ENFORCEMENT OFFICERS MEMORIAL FUND
    Mr. Floyd. Mr. Chairman, our organization is a major 
stakeholder in Judiciary Square. In 1991, at the direction of 
the United States Congress we built and now assist the National 
Park Service in the maintenance and operation of the National 
Law Enforcement Officers Memorial in Judiciary Square.
    In November 2000, the Congress gave us a further 
authorization to build a National Law Enforcement Museum right 
across the street from the National Memorial. The National Law 
Enforcement Museum Act was authored by a distinguished member 
of the Senate Appropriations Committee, U.S. Senator Ben 
Nighthorse Campbell.
    Congress was very specific in terms of our authority to 
build this museum. The site and precise boundaries of the 
museum were spelled out in very clear terms, and a diagram 
showing the museum's boundaries is displayed for your 
convenience. Two above-ground pavilions, totaling approximately 
10,000 square feet, will serve as the entrances to the museum. 
The rest of the museum facility, approximately 80,000 square 
feet, will be located underground.
    And I should point out, Mr. Chairman, that this museum will 
be funded exclusively through private donations. No taxpayer 
dollars are going to be used at all.
    The boundaries of the site laid out in the authorizing law 
were established after much discussion and many meetings with 
the Committee on Administration of the District of Columbia 
Courts, after they informed us of their plans to renovate and 
expand the Old Courthouse building.
    Recognizing that our two projects are linked so closely in 
proximity, the public review agencies have required that we 
consult with the Courts in our design plans for the museum 
plaza area, and mutually agree on an acceptable solution. We 
are working in good faith toward a final resolution. However, 
it must be noted, Mr. Chairman, that we have some serious 
differences with the Courts about the design of the museum 
plaza area.
    First and foremost, we believe it is essential that the 
Memorial Fund and our architects design, build and maintain the 
museum plaza area, just as the Courts should be allowed to 
design, build and maintain the areas within their boundaries. 
The Courts disagree and have included the museum plaza, the 
space between this and surrounding the museum pavilions in 
their design plans.
    Not only is this in conflict with the authority that 
Congress gave the Memorial Fund over that property, but their 
plans have ignored a number of our stated needs and concerns.
    The museum plaza is, in fact, the roof of our $70 million 
museum. There are many technical, aesthetic and practical 
considerations when designing and maintaining the roof and 
plaza area of our museum; air ventilation, visitor staging, 
water leakage, and skylights to let natural light down into the 
museum, to name just a few.
    It should be noted that we are anticipating between 300,000 
and 500,000 visitors annually. On peak days, visits may exceed 
4,500 people. The museum is requiring security screening at the 
pavilion level. The plaza design must take into account this 
queuing requirement. For these important reasons, we cannot 
cede control of the museum plaza area to the Courts or to 
anyone else.
    Further, Senator Campbell addressed this issue in very 
strong terms in a letter to the Chairman of the Commission of 
Fine Arts in October of 2003. He said, in part, ``The public 
law provides full use and control of the museum site, 
aboveground and underground, to the Memorial Fund. Any 
accommodation to others with regard to the use or access of the 
museum site, including the plaza area between the two entrance 
pavilions, is and will be at the sole discretion of the 
Memorial Fund.''
    We are also concerned about the timing of our two projects. 
While the construction and renovation of the Courthouse is 
planned for 2005 to 2006, construction on the museum is not 
expected to commence until at least 2007, and Congress actually 
granted us until 2010 to begin construction.
    This means that no matter what the Courts decide on for the 
final design for the courthouse, and any entry on the north 
side, they must include a long-term interim solution. It would 
be irresponsible and a waste of taxpayer dollars to design and 
build anything on the north side of the courthouse that would 
have to be demolished when we begin construction on the museum.
    Finally, let me state that the Memorial Fund is committed 
to accommodating the future access and usage needs of the 
Courts. Any final solution must work for both the Courts and 
the Memorial Fund. However, we are not prepared to relinquish 
control of the museum plaza area, as defined by the boundaries 
in the Museum Authorization Act. And we are not prepared to 
make concessions that will in any way appear to diminish the 
National Law Enforcement Museum's importance or presence in 
Judiciary Square.
    And let me just make one final comment. This is the first I 
have heard of the Commission of Fine Arts' suggestion that we 
move our entrance to the Memorial side of E Street, the north 
side. We explored that option. Judge Wagner and I together 
looked at that very closely. I responded to the Judge's 
concerns in that area. And two things prevented us from doing 
that. One, the National Park Service strongly opposes the idea. 
They own and control the National Law Enforcement Officer's 
Memorial, and they do not think it should be disrupted in any 
way. And secondly, any major entrance to the museum on that 
site would cause a major disruption and really demolition of a 
major portion of the National Law Enforcement Officer's 
Memorial, including part of the memorial walls that include 
more than 16,000 names of fallen officers.

                           PREPARED STATEMENT

    And for those reasons, I have indicated to Judge Wagner 
that that would not be an acceptable solution, but we did 
explore it carefully.
    Senator DeWine. Thank you.
    [The statement follows:]
                  Prepared Statement of Craig W. Floyd
    Mr. Chairman, I am very pleased to have this opportunity to testify 
on the appropriations request by the District of Columbia Courts to 
renovate and expand the Old Courthouse Building in Judiciary Square. I 
am here today on behalf of our board of directors, which is comprised 
of representatives from 15 national law enforcement organizations (copy 
of board of directors and organizations they represent is attached). 
Collectively, these organizations represent virtually every law 
enforcement officer, family member and police survivor in the United 
States.
    Our organization, the National Law Enforcement Officers Memorial 
Fund, is a major stakeholder in Judiciary Square and has great interest 
in any construction and renovation plans in the area. In 1991, we built 
and now assist the National Park Service in the maintenance and 
operation of the National Law Enforcement Officers Memorial in 
Judiciary Square. Today, that Memorial stands proudly as a richly 
deserved tribute to the more than 16,000 law enforcement officers who 
have been killed in the line of duty and whose names are inscribed on 
the Memorial's marble walls, including 698 from your home State of 
Ohio, Mr. Chairman.
    In November 2000, the Congress gave us a further authorization to 
build a National Law Enforcement Museum in Judiciary Square, right 
across the street from the National Memorial. The ``National Law 
Enforcement Museum Act,'' Public Law 106-492 (copy attached), was 
authored by a distinguished member of the Senate Appropriations 
Committee, U.S. Senator Ben Nighthorse Campbell. As a former deputy 
sheriff, Sen. Campbell has a special understanding and appreciation of 
the extraordinary level of service and sacrifice that our law 
enforcement officers have given our Nation.
    Sen. Campbell also knows that many other Americans lack that 
understanding and appreciation, mainly because they are not familiar 
with the dangers and importance of the job, or the proud history of the 
law enforcement profession. The proposed museum will help to educate 
Americans about the police profession's worth to our country by 
properly commemorating law enforcement's outstanding record of service 
and sacrifice.
    Congress was very specific in terms of our authority to build this 
Museum. The site and precise boundaries of the Museum were spelled out 
in very clear terms. (A diagram showing the Museum's boundaries is 
attached for your convenience.) Two above ground pavilions, totaling 
approximately 10,000 square feet, will serve as the entrances to the 
Museum. The rest of the Museum facility, approximately 80,000 square 
feet in size, will be located underground.
    The authorizing law specifically states that the National Law 
Enforcement Officers Memorial Fund ``shall own, operate, and maintain 
the Museum after completion of construction.'' Congress also required 
that ``The United States shall pay no expense incurred in the 
establishment or construction of the Museum.'' All of the funding for 
this Museum, just as it was for the Memorial, will come from private 
funds. No taxpayer dollars will be used. Finally, Congress stipulated 
that sufficient funds to complete construction of the Museum must be 
available before we are allowed to commence construction. We were given 
until November 2010 to begin construction of the Museum, or our 
authority to build the Museum will terminate.
    The boundaries of the site laid out in the authorizing law were 
established after much discussion and many meetings with the Joint 
Committee on Administration of the District of Columbia Courts, which 
has plans to renovate and expand the Old Courthouse building to the 
south of the Museum site. We have been very sensitive to their needs 
and interests throughout this process. In fact, we fully supported a 
provision that was included in the Museum Act authorizing the Courts to 
construct an underground parking structure to better meet their 
security and parking needs.
    We also agreed to a provision in the Museum authorizing law that 
calls for us to ``consult with and coordinate with the Joint Committee 
on Administration of the District of Columbia courts in the planning, 
design, and construction of the Museum.'' I believe the record is clear 
that the consultation and coordination called for in the legislation 
has occurred, and it will certainly continue to occur until the Museum 
is completed. (A chronology of that consultation and coordination is 
attached.)
    Let me say for the record that the renovation plans of the D.C. 
Courts for the Old Courthouse building are certainly consistent with 
our own efforts to appropriately restore the Judiciary Square precinct 
to a condition equal to its historic significance. The establishment of 
the National Law Enforcement Officers Memorial as the centerpiece of 
the Judiciary Square complex was a major step in this direction. 
Completion of the National Law Enforcement Museum and the renovation of 
the Old Courthouse building will fulfill this important vision.
    Recognizing that our two projects are linked so closely in 
proximity, both the National Capital Planning Commission, and the 
Commission of Fine Arts have required that we collaborate with the 
Courts in the design plans for the Museum plaza area, and mutually 
agree on an acceptable solution. We are working in good faith toward a 
final resolution. However, it must be noted, Mr. Chairman, that we have 
some serious differences with the Courts about the design of the Museum 
plaza area.
    First and foremost, we believe it is essential that the Memorial 
Fund and our architects design, build and maintain the Museum plaza 
area. The Courts disagree and have included the Museum plaza in their 
design plans, which simply do not take into consideration our needs and 
concerns. For example, their plans do not provide the skylights we need 
to allow natural light down into the underground Museum area. Their 
plans call for the elimination of an important outdoor reception plaza 
area, and their proposed water elements pose water leakage hazards that 
would be out of our control and pose serious risks to our $15 million 
worth of exhibits below. We believe that their proposed monumental 
staircase and large glass entranceway would serve to overwhelm the 
Museum pavilions and diminish the Museum's presence and importance.
    The Museum plaza is, in fact, the roof of our $70 million Museum. 
There are many technical, aesthetic and practical considerations when 
designing and maintaining the roof and plaza area of our Museum--air 
ventilation, visitor staging, water leakage, and skylights to let 
natural light down into the Museum, to name just a few. It should be 
noted that we are anticipating between 300,000 and 500,000 visitors 
annually. On peak days, visits may exceed 4,500 people. The Museum is 
requiring security screening at the pavilion level. The plaza design 
must take into account this queuing requirement. For these important 
reasons, we cannot cede control of the Museum plaza area to the Courts 
or anyone else.
    Further, Sen. Campbell addressed this issue in very strong terms in 
a letter to the Chairman of the Commission of Fine Arts dated October 
14, 2003 (copy of letter attached). He said, in part:

    ``It was always my intent, and the authorizing law clearly states, 
that the National Law Enforcement Officers Memorial Fund, Inc. 
(``Memorial Fund'') shall be solely responsible for preparation of the 
design and plans for the Museum, subject to the approval of the 
Secretary of the Interior, the CFA and the National Capital Planning 
Commission. Further, the public law provides full use and control of 
the Museum site (aboveground and underground) to the Memorial Fund. Any 
accommodation to others with regard to the use or access of the Museum 
site, including the plaza area between the two entrance pavilions, is 
and will be at the sole discretion of the Memorial Fund.''

    We believe that our needs and interests in the plaza area, along 
with the stated access needs of the Courts, can be successfully 
addressed. We have been sharing ideas with the Courts on the Museum 
plaza area for several months now, and the next meeting is scheduled 
for this Friday, February 27. Our architects will be providing the 
Courts with our latest design plans and I am confident that we are 
getting close to a final resolution on this important issue.
    We are also concerned about the timing of our two projects. While 
the construction and renovation of the Courthouse is planned for 2005-
2006, construction on the National Law Enforcement Museum is not 
expected to commence until at least 2007, and Congress actually granted 
us until 2010 to begin construction. Under even the most optimistic 
schedule, the Museum would not be completed until at least 2009, and at 
the outside, by 2012. This means that no matter what the Courts decide 
on for the final design for the Courthouse, and any entry on the north 
side, they must include a long-term interim solution. It would be 
irresponsible and a waste of taxpayer dollars to design and build 
anything on the north side of the Courthouse that would have to be 
demolished when we begin construction on the Museum. In fact, our 
construction plans call for closing E Street for approximately 18-24 
months, so access on the north side of the Courthouse will be severely 
limited during that time.
    Finally, let me state that the Memorial Fund is committed to 
accommodating the access and usage needs of the Courts. While our 
earlier plans were not successful in meeting those needs, we are 
working aggressively toward a final resolution. Any final solution must 
work for both the Courts and the Memorial Fund. However, we are not 
prepared to relinquish control of the Museum plaza area, as defined by 
the boundaries in the Museum Authorization Act. And, we are not 
prepared to make concessions that will in any way appear to diminish 
the National Law Enforcement Museum's importance or presence in 
Judiciary Square. As Sen. Campbell said in his October letter to the 
Commission of Fine Arts:

    ``This Museum should never be allowed to become a secondary 
consideration. Our Nation's law enforcement officers, especially the 
thousands of fallen heroes who are honored across the street at the 
National Law Enforcement Officers Memorial, deserve no less.''

    I know, Mr. Chairman, that you and the other Subcommittee members 
share that opinion. We look forward to working with the Courts and with 
this Subcommittee in ensuring that the rightfully grand vision we all 
share for Judiciary Square is fully realized.

    Senator DeWine. Senator Landrieu.

                  LOCATION OF THE MEMORIAL AND MUSEUM

    Senator Landrieu. Mr. Chairman, I really appreciate you 
bringing this group together so that we can perhaps explore 
some options that work well for the Courts and work well for 
the museum.
    And you will have to forgive me, because we are not 
familiar with all of this, many of the details, but maybe a 
little background would be helpful to me, Mr. Floyd, about how 
the memorial got to Judiciary Square in the first place. And as 
you and the organization that we want to be very respectful to 
searched for spaces to put this museum, how did you come across 
or settle on this particular space?
    Mr. Floyd. Well, it was approximately 1988 when we toured 
Washington to find an appropriate location for the National 
Memorial. And with the help of the National Park Service and 
the Commission of Fine Arts and the National Capital Planning 
Commission, we realized that there was strong linkage between 
law enforcement and Judiciary Square. It is the seat of our 
Nation's judicial branch of government and the seat of the 
criminal justice in this Nation of ours.
    And everyone involved felt that that would be the 
appropriate location for a National Memorial honoring law 
enforcement, so that is how we first arrived at Judiciary 
Square in 1988. We built the memorial in 1991.
    And then when we decided to build a museum to complement 
the memorial and further our mission, we felt that it needed to 
be located very close to where the memorial is. There needed to 
be close proximity. We explored the area, and the Federal 
property that now serves as the court parking lot across E 
Street to the south we viewed as the prime location for that.
    Congress agreed with us when we took that proposal to them, 
and they unanimously approved the legislation authorizing that 
site for our museum.
    And I should point out and emphasize that Judge Wagner was 
very helpful in negotiating that site for us. We spent many 
months talking this through and defining the boundaries of our 
museum so that it would not impact negatively on their 
courthouse.
    Senator Landrieu. Because both of these projects are so 
important, and I am just wondering maybe, Ms. Gallagher or Mr. 
Lindstrom, things that Congress does and can undo, things that 
Congress does and can change--you know, it is not--anything is 
not in stone. Even things that are built are torn down and 
redone. So I want to not just--I want to explore all of the 
options.
    And you all have worked with the law enforcement folks. I 
know that area is developed quite a bit and part of the 
challenge is that there is so much being constructed and built 
all along that area in the Mall. But is there any other space 
of land other than this particular plaza that the museum could 
be located near to the memorial, which is important for them, 
or is this just the only spot that they can be in?
    Mr. Lindstrom. Well, I--let me back up. With the--before 
the public wall, I do not believe that they consulted with the 
Commission of Fine Arts on the siting of the museum. And I know 
that was before your time, Ms. Gallagher. So this law was 
passed without a conference with our commissioners of the 
appropriateness of actually locating it under E Street.
    So once the law was passed, all those explorations were 
sort of moot. There are, perhaps not, open spaces in Judiciary 
Square, but there are other structures that could be 
rehabilitated for the museum, just as the Courts is doing for 
the Old City Hall, rehabilitating it for their new court.
    The building that comes to mind is the building that is 
immediately adjacent to the west side of Memorial Plaza.
    Senator Landrieu. Could you explain it out with the map? 
Because, Mr. Floyd, unless, you know, one possible solution--
and I realize the plaza is very important. We respect the law 
enforcement across the country, and we want you all to have 
something that, you know, we are all very proud of, and really 
fulfills our mission.
    But I am wondering if there were--if we could help you, if 
there are other buildings that are very, you know, right on the 
plaza, so, A, we are not going underground. Is there a 
particular reason why you want to go underground as opposed to 
being on top of the ground? And if you can be on top of the 
ground just as easily as you can be under the ground, maybe we 
can help you find a building and help you build it.
    Mr. Floyd. I appreciate that, Senator. I would respond with 
two things. One, there was a public hearing that the Senate 
held on this issue when we were discussing the site for this 
museum.
    The Commission of Fine Arts and other agencies did testify. 
And I believe there was fairly universal support for the 
proposal. The National Park Service also testified. We did 
explore other options, some of the existing buildings, court 
buildings surrounding us, for example, and just found those 
buildings unsuitable for a museum.
    It is important to understand that a museum requires 
certain space requirements and openness and so forth. We did 
not find any of the buildings in the area suitable for that. 
And Congress, after due deliberation I should point out, and 
working with a number of the public review agencies and the 
National Park Service, felt that the Court property, the Court 
parking lot property that ended up being the site for the 
museum was the best and most appropriate location.
    Senator Landrieu. Well, and I realize that, and I know that 
you all have worked a great deal on this, and I am not going to 
reach any conclusion. I am just exploring our options, because 
they are all very good public purposes that are being 
discussed. And there are other buildings and other spaces and, 
you know, there are a lot of demands on this little plot of 
land called the District of Columbia, which is a district. And 
there are lots of--you know, it is the City, it is also the 
Nation's Capital, it is also the Park Service for recreation, 
so we go through this all the time. This is not anything that 
is unusual.
    But I am just thinking for the extent of the renovations 
the Court needs, and you want to do a good job with your--of 
course, with your project. I mean, is it too late to, in your 
opinion, to just explore other options or buildings, even if--
now, I am not sure if there are any buildings that could 
actually be demolished and constructed new for you. I do not 
know if we would be restricted in that, because maybe all of 
these are historic buildings and cannot be.
    Mr. Floyd. Senator, I can only say that we have already 
spent over $3 million to----
    Senator Landrieu. Oh, right.
    Mr. Floyd [continuing]. Develop this site and to develop 
the plans for the museum. The schematic design plans for the 
building have already been completed. I think we have spent 
over $600,000 to accomplish that. I think it would be a great 
misuse of our donors' money to now revisit the idea of moving 
elsewhere. And I will say, I appreciate the concern----
    Senator Landrieu. That is a problem, because you have got 
$3 million in private dollars----
    Mr. Floyd. Yes.
    Senator Landrieu [continuing]. Committed to this site.
    Mr. Floyd. Yes. Well, we are totally committed. And Judge 
Wagner and I, I think, need to get together. We have tried to 
hand this off to our architects most recently, I am afraid 
without great success, although they have another meeting 
scheduled for Friday.
    And I think we are getting closer. They came to us with a 
plan early February that our architects are now going to be 
responding to on Friday. I think once that occurs, Judge Wagner 
and I can sit down and talk.
    We are going to work this out. I really do not think we are 
that far away. So the idea of, you know, can we both live on 
that site? I think the answer is absolutely yes. I do not think 
Judge Wagner would have agreed to the legislative solution that 
we proposed back in 2000 if she did not agree with that.
    Senator DeWine. Let me just say, if I could jump in here, 
we need a deadline. We have got--this subcommittee provides 100 
percent of the funds for the District for the Courts. We have 
got a responsibility to make sure we do not have overruns, that 
we do not waste money.
    Senator Landrieu.
    Senator Landrieu. Mr. Chairman, before we--Eleanor, I just 
wanted to recognize that you were here before you left. I just 
want to recognize the Congresswoman from the District, as well 
as our shadow Senator, Paul Strauss, but thank you all. We have 
received your----
    Ms. Norton. Thank you for holding the hearing. Thank you 
very much.
    Senator DeWine. It is good to see you.
    Senator Landrieu. Thank you.

                               SITE PLANS

    Senator DeWine. We have got--you know, we have got an 
obligation to move on.
    Ms. Gallagher, you were--do you want to describe the 
physical problem here? I saw your model back there. Not that we 
are going to--not that Senator Landrieu and I are going to get 
into this here. We are not. We cannot.
    Ms. Gallagher. Well, there is a--what we interpret as an 
obstruction in the Memorial Fund's design for the plaza. 
Abovegrade construction that--that we perceive in the last----
    Senator DeWine. I cannot see it.
    Ms. Gallagher. I think, if I may with your permission, our 
chief architect is here and she may be able to describe this.
    Senator DeWine. Yes, just briefly.
    Ms. Gallagher. Yes.
    Senator DeWine. Just real briefly.
    Ms. Saum. In a nutshell----
    Senator DeWine. For the record, what is your name, ma'am?
    Ms. Saum. My--I am sorry. My name is Christine Saum. I am a 
senior urban designer at the National Capital Planning 
Commission.
    The last time we received additional plans for this 
facility was last spring. But this model appears to me to be 
pretty much the same, in that the drawings we received last 
spring, the plaza location here on E Street between the museum 
pavilions was approximately 8 feet lower than the plaza shown 
here for the entrance to the courthouse.
    Direct access between the two plazas is obstructed by a 
water feature and a skylight that provides light to the 
underside, to the lower levels of the museum. And access to the 
courthouse would be required to pass behind the two museum 
pavilions by their loading docks and service areas. And we 
thought that was inappropriate for the entrance of the 
courthouse and did not----
    Senator DeWine. Why is it inappropriate?
    Ms. Saum. Because we thought that to have the access to a--
to an important court, the Superior Court, you should not be 
required to go around behind the loading dock, essentially. We 
thought that they needed direct access.
    And it was our interpretation of the Museum Act that when 
it stated that there was a 100-foot-wide area to be maintained 
where no aboveground construction was to be created, that the 
purpose for us to provide direct access to the courthouse and 
not merely to provide open views.
    Senator DeWine. Thank you.
    Judge King, Mr. Floyd said he thinks you all are getting 
close. Of course, that has to satisfy Ms. Gallagher, Mr. 
Lindstrom, and a lot of other folks----
    Judge King. I will just respond briefly, and then I know--
--
    Senator DeWine. Are you closer than not?

                     ENTRANCE TO THE OLD COURTHOUSE

    Judge King [continuing]. Chief Judge Wagner will. The Act 
is plain. It says there is a 100-foot corridor to get to the 
courthouse, so that it is an entrance, a main entrance with the 
security features and everything you need for the courthouse. 
It says that. It is very clear in the Act. I do not think we 
are close on that.
    Since last fall, the Court has revised its effort, its 
plan, to try to meet some of the concerns at CFA and NCPC. The 
Memorial has not.
    And the one other thing I do not want to let pass without 
commenting on is: We are renting space, swing space, while we 
do our renovations. We are depending on all of the buildings in 
the area, most of which are historic court buildings, for the 
ultimate filling out of our 10-year plan, so if we start giving 
those buildings away, then we are going to have to pay for it 
somewhere else. We are going to have to build space or lease 
space or do something, and it will become much more disruptive 
than any plan that we are talking about in terms of the Act as 
it stands now.
    Senator Landrieu. So you would prefer them to stay 
underground where they are, as opposed to having to give up one 
of the other buildings or use some comparable site. But the 
problem is that underground design that they have is not 
conducive to the functioning of the Courts building generally.
    Judge King. Well, no. The law says they are to have an 
underground building with two pavilions not to exceed 25 feet 
in height, and outside a 100-foot corridor that goes from E 
Street to the Courts buildings.
    So, as we say in the courthouse, ``Follow the law.'' That 
is all we need to do.
    Senator DeWine. Judge Wagner.
    Judge Wagner. May I say something? At the time the Act that 
was passed, of course, it was not the first bill. It was 
amended.
    And if you look back at the legislative history, you will 
see that after over 2 months of negotiations, the National Law 
Enforcement Memorial Fund and the Courts reached an agreement 
to clarify that the building of this museum will in no way 
conflict with the Courts' expansion and renovation, which was 
planned at that time. And so that is how the museum went 
underground.
    And if you have ever been down to the Smithsonian castle on 
the Mall, the model was essentially that. There is no blockage 
to the entranceway to the Castle imposed by the two underground 
museums on the Mall. That was how we thought we could coexist 
in this very small space.
    Symbolically, and given the historic character of Judiciary 
Square, we were concerned if the entranceway to the courthouse 
gives the appearance that there is blockage that is imposed by 
law enforcement. The separation is something that is required, 
given our way of life and our system of government in this 
country.
    And so within those parameters, we are working to try to 
accommodate our interests and the interests of the public in 
having this historic building----
    Senator DeWine. Well, let me----
    Judge Wagner [continuing]. You know----
    Senator DeWine. Yes. I do not think anyone is more 
supportive of, you know, the National Law Enforcement Fund than 
Senator Landrieu and I. You know, we want this to move forward 
very, very, very, very much.
    I guess the question is, Mr. Floyd, having heard these 
comments, where do we go from here?
    Mr. Floyd. I think the basic thing that the Courts want and 
need and deserve is access to their courthouse on the northern 
side, which they are planning to build as part of their plan. 
And I am absolutely personally committed to making that happen.
    I agree that the initial design that we developed with 
aboveground skylights precluded that to--in their mind, because 
they did not want to go around. They wanted to go straight up 
the middle. So we are now coming back to them with a design 
approach that gives us skylights, will allow natural light to 
get down below, but will give them direct access to their north 
entry of the courthouse, as their architects proposed to us 
earlier this month.
    It has only been a couple of weeks since we have had a 
chance to look at their plans, and we are now prepared to 
respond on Friday. And I think we are all in agreement that we 
want to give them what they want, and we just want to have 
control over that space so that we can maintain and deal with 
water leakage issues and make sure that we have the staging 
area for our visitors that we need. Those are our main 
concerns.
    And I do not see this as a major impasse. But their 
architects and ours have got to work in cooperation.

                       SUBMISSION TO NCPC AND CFA

    Senator DeWine. I understand. But with all due respect, you 
know, there has been no agreement for a year. And that is what 
this committee has to look at, and we have got a fiscal 
responsibility to make sure something moves here. So, you know, 
I want you to reach an agreement. I think it is imperative, you 
know, that this agreement is reached.
    So, you know, I am going to put everybody on notice that I 
expect you to reach an agreement and submit your plans to the 
National Capital Planning Commission and the Commission on the 
Fine Arts no later than March 3. If the Courts and the National 
Law Enforcement Fund cannot reach an agreement by March 3, then 
the Courts and the Law Enforcement Fund can submit their own 
individual plans to the NCPC and the Commission.
    Finally, I ask the National Capital Planning Commission and 
the Commission on the Fine Arts to review these plans if they 
are able, even though the submission deadline for them is 
viewed as past. This project is time critical and a decision on 
the design simply cannot slip another month. So that is what we 
are going to have to do.
    So, you know, hopefully we can reach this agreement. I hope 
you all can get together and in the next couple of days and get 
this thing ironed out. You know, we want both--you know, we are 
for all of you. I mean, we really are. And we want, you know--
everybody has public policy objectives that I think everyone is 
for. And there has not been anything said up here that we are 
not for.
    But you are the ones that have to mesh them. We cannot mesh 
them for you. We are not architects, and we are not sitting in 
your shoes, but you have got to get it worked out. And if you 
cannot get it worked out, you are just going to have to submit 
the plans, I guess, and let them deal with it. So that is where 
we are.
    Mary, anything else?
    Senator Landrieu. I just--are the architects for Mr. Floyd 
here?
    Mr. Floyd. They are. Davis Buckley is.
    Senator Landrieu. Will you stand please, so I can recognize 
you?
    And you are the representing the firm, representing the 
architects?
    Mr. Floyd. He is the principal, yes.
    Senator Landrieu. All right. Well, we just hope--I want to 
support the chairman. I think those deadlines are tight, but 
there is a real need to work this out. And I am hoping that the 
architects that are present for both of these projects 
understand what is being said, and that these are both two 
beautiful projects, and I am sure with a little bit of 
understanding, it could be worked out. And if not, then it 
could jeopardize them both, and that is just not necessary.
    So I know money has been spent, but there is going to be 
hundreds of millions of dollars spent on the final construction 
of this, so, yes, $3 million has been spent. But if $3 million 
could be spent up front a little bit better, then we can go 
ahead and do this for everybody. If not, it can cause a lot of 
problems.

                          SUBCOMMITTEE RECESS

    Senator DeWine. I mean, you know, we see this Memorial and 
that tribute to law enforcement as something we want to see. We 
want to see the magnificent courthouse restored. And they are 
two good things we want to have, and let us just make sure it 
gets done.
    Anything else?
    Senator Landrieu. No.
    Senator DeWine. All right. Thank you all very much. Good 
luck.
    [Whereupon, at 10:31 a.m., Wednesday, February 25, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
